<html>
<title> - THE FATAH-HAMAS RECONCILIATION: THREATENING PEACE PROSPECTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
      THE FATAH-HAMAS RECONCILIATION: THREATENING PEACE PROSPECTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2013

                               __________

                            Serial No. 113-2

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
79-631                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff988f90bf9c8a8c8b979a938fd19c9092d1">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Matthew Levitt, Ph.D., director, Stein Program on 
  Counterterrorism and Intelligence, The Washington Institute for 
  Near East Policy...............................................     9
Michael Rubin, Ph.D., resident scholar, American Enterprise 
  Institute......................................................    21
Mr. David Makovsky, director, Project on the Middle East Peace 
  Process, The Washington Institute for Near East Policy.........    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Matthew Levitt, Ph.D.: Prepared statement........................    12
Michael Rubin, Ph.D.: Prepared statement.........................    23
Mr. David Makovsky: Prepared statement...........................    31

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65


      THE FATAH-HAMAS RECONCILIATION: THREATENING PEACE PROSPECTS

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The committee will come to order. I would 
like to welcome everyone to our first hearing on the 
Subcommittee on Middle East and North Africa on the 113th 
Congress. I want to congratulate my good friend, my fellow 
Floridian colleague, Mr. Deutch, for earning the spot of 
ranking member. I look forward to working with Ted and with his 
staff throughout our Congress and our congressional session. 
Thank you, Ted.
    Mr. Deutch. Thank you.
    Ms. Ros-Lehtinen. It is a pleasure to be with you.
    After recognizing myself and the ranking member, Mr. 
Deutch, for 5 minutes each for an opening statement, I will 
then recognize other members seeking recognition for a 1-minute 
opening statement. We will then hear from our witnesses. And, 
without objection, the witnesses' prepared statements will be 
made a part of the record. Members may have 5 days in which to 
insert statements and questions for the record subject to the 
length limitation in the rules. The Chair now recognizes 
herself for 5 minutes.
    With so much instability and turmoil surrounding the Middle 
East, Israel is in a more precarious situation than ever now, 
as it is surrounded by rogue regimes and terrorist 
organizations that wish to wipe her off the map. To Israel's 
northeast, the prospects of Assad falling to Syria seems to be 
a matter of when and not if as fears grow that Assad's chemical 
weapons arsenal might fall into the wrong hands. Yet, that 
isn't the only concern for Israel as she looks to her neighbors 
across the Sinai and sees Egypt once again engulfed in turmoil.
    Just 2 years after demonstrators took to the streets 
demanding freedom and an end to the regime of Mubarak, it 
appears that Egyptians are no better off now than they were 
back then. A continued threat to the Israeli people stems from 
smugglers and extremists bringing everything from drugs and 
weapons through the Sinai. The Egyptian Government continues to 
let the Sinai be used as a sanctuary for illicit activities and 
provides Iran the pathway to provide weapons to rearm Hamas. 
The threat is more apparent by Ahmadinejad arriving in Cairo 
today, making it the first time that an Iranian leader has 
visited Egypt since 1979.
    The existential threat that a nuclear Iran poses to Israel, 
to our U.S. allies, and our national security interests seeks 
to destabilize the entire region as recent reports suggest that 
Iran has told U.N. nuclear officials that it plans to add 
hundreds more centrifuges to further its nuclear enrichment 
program.
    Vice President Biden's recent comments about the 
administration's willingness to talk to the supreme leader will 
only embolden the Iranian regime. Instead, we must concentrate 
on enforcing and expanding our sanctions and cooperate with 
responsible nations to compel Iran to abandon its nuclear 
weapons ambition. And if all of that were not enough, we are 
witnessing Abu Mazen and Hamas seeking to unify their mutual 
hatred toward the democratic Jewish State of Israel.
    These overtures can leave the future of a peace process in 
serious jeopardy. The Palestinian Authority is corrupt and has 
not prevented Hamas and other Palestinian extremist groups from 
allowing violence to turn against the Jewish state. Congress 
needs to exert our oversight responsibility and urge the Obama 
administration to hold the Palestinian Authority accountable 
for its aggressive actions against our ally Israel.
    The destructive actions by the Palestinian Authority at the 
U.N., negotiating with Hamas, and undermining the peace process 
with Israel cannot continue without any repercussions. As a 
former chair of our Foreign Affairs Committee, I exercised due 
diligence at holding funds from reaching the Palestinian 
Authority.
    We should also leverage our contributions to the United 
Nations, specifically entities like UNESCO, to prevent the P.A. 
from pushing its anti-Israel agenda.
    I am disappointed that the administration continues to 
advocate for millions of taxpayer dollars to Palestinian 
programs and ignores existing U.S. law, which already prohibits 
funds to entities that recognize Palestine at the U.N. Should 
the U.S. be sending millions in hard-earned U.S. taxpayer 
dollars to the Palestinian Authority when it continues to 
embrace extremist violence against the Israeli people?
    It has become clear that Abu Mazen is more interested in 
joining forces with Hamas, a U.S.-designated foreign terrorist 
organization, than he is with brokering peace with Israel. This 
is the same entity that was visually attacking Israel with a 
persistent and ongoing barrage of rocket attacks from Gaza. 
They have all been clear signals that Israel cannot count on 
Abu Mazen as a true partner for peace. While he actively seeks 
to reconcile with Hamas, he shows where his true priorities 
lie, undermining the peace process.
    I agree with Prime Minister Netanyahu that Israel cannot 
negotiate with a partner who openly embraces a foreign 
terrorist organization that wishes to see the destruction of 
the Jewish State of Israel. Israel cannot find a true partner 
in peace with any government that is comprised of members of 
Hamas. If these efforts of unification are real, it gives us 
all a great deal of reason for concern for both the future of 
the peace process and, indeed, Israel's safety in the rapidly 
changing Middle East.
    And, with that, I am pleased to turn to my friend, the 
ranking member, Mr. Deutch, for his opening remarks.
    Mr. Deutch. Thank you, Madam Chairman. I'll first say how 
pleased I am to serve the subcommittee with you. We have had a 
chance to work together for years on our mutual efforts to 
thwart Iran's nuclear program, to ensure the safety and 
security of the State of Israel, and to advocate on behalf of 
the thousands of Holocaust survivors in south Florida and 
around the country.
    I would also like to welcome members of the subcommittee, 
especially those who are new to the Foreign Affairs Committee. 
This committee tackles one of the most volatile, yet vitally 
important regions of the world. And I thank you for your 
dedication to these issues.
    Today's hearing comes at a crucial time for both Israel and 
the Palestinians. Just 2 weeks ago, Israeli elections saw the 
highest turnout in a decade with a last minute surge by 
centrist parties. And once again we are reminded that Israel's 
vibrant democracy is a model in a region where many still 
struggle for free and fair elections.
    This weekend, President Perez officially tasked Prime 
Minister Netanyahu with forming a coalition government. The new 
government will grapple with precisely the question before us 
this morning. And it will grapple with broader issues 
surrounding Israel's quest for peace with its neighbors and the 
very possibility of a two-state solution.
    In 2010, Prime Minister Netanyahu began an unprecedented 
halt to construction for 10 months in the West Bank. And while 
this moratorium was demanded by President Abbas as a condition 
for negotiations, only in the last 3 weeks of the moratorium 
did he even agree to talks. And since September 2010, they have 
been frozen. Instead, Abbas abandoned direct talks and pursued 
the unilateral creation of a Palestinian state. In doing so, 
they violated U.N. resolutions 242, 338, and the Oslo, of 
course, all of which lay out the framework for a negotiated 
settlement between the two parties. He then internationalized 
the process by seeking statehood through the Security Council 
at the U.N. and pushing for upgraded status for the 
Palestinians at the U.N. this fall, again contrary to the 
established framework for peace talks.
    Alongside these unilateral actions, Fatah began negotiating 
reconciliation with Hamas, a terrorist organization that 
continues to call for Israel's destruction. To be sure, Hamas' 
rejection of the quartet principles precludes it from being a 
legitimate partner for peace.
    In May 2011, I was in Ramallah the day after Hamas and 
Fatah first announced reconciliation. We sit here today, nearly 
2 years later, after witnessing Hamas rain rockets down on 
Israel and continue to defy international conditions. Just 
weeks ago, Hamas leader Khaled Meshaal and President Abbas met 
in Cairo to further their supposed reconciliation. Talks will 
resume in Cairo again next week, and it remains unclear whether 
either side really intends to move forward.
    Let me be clear. The United States will not accept a 
Palestinian Government that includes Hamas. In fact, our laws 
dictate that aid to the P.A. will cease should Hamas play any 
significant role in the government without first adhering to 
the quartet principles. I made this very point to Prime 
Minister Fayyad 2 years ago.
    So the question remains, will President Abbas demand Hamas-
renounced violence? We know Abbas' supposed request that Hamas 
dismantle militias to disarm is a major divide in these talks. 
And for Hamas, the answer appears to be an unwavering no.
    Today, Israeli and Palestinian security forces work 
together each day to secure the region and to enhance Israel's 
security with U.S. support. This assistance actually advances 
peace. So while I share my colleagues' frustration with Abbas' 
unilateral actions and pursuit of reconciliation with Hamas, 
U.S. law remains clear. Reconciliation with a terrorist group 
will mean no United States aid. But if we are to advance the 
prospect of peace and ensure lasting security for Israel, we 
have to assess the implications of our actions. Our goal must 
be to prevent reconciliation so that there continues to be a 
viable partner for peace with Israel operating in the West 
Bank.
    I don't want this to become a self-fulfilling prophecy. We 
have got to ensure that our discussions regarding 
reconciliation, our policy regarding reconciliation, do not 
leave the P.A. without any other option but reconciliation.
    Prime Minister Fayyad has worked tirelessly to build 
institutions capable of supporting a Palestinian state. These 
institutions are essential to the creation of an economically 
viable, stable Palestinian state and to the long-term lasting 
security of Israel. But the P.A. is facing massive budget 
shortfalls.
    And while the U.S. has been withholding funds for nearly a 
year, Israel recently agreed to resume the transfer of revenue 
to the P.A. after a 4-month suspension following Abbas' efforts 
at the U.N. And while I acknowledge the natural reaction to 
Abbas' efforts is to withhold funds, the longer salaries go 
underpaid, the more likely Fatah supporters will look elsewhere 
for support.
    I have grave concerns that the collapse of the Palestinian 
Authority would pose the gravest of threats to security in the 
West Bank and to our ally Israel and destroy any prospect for 
negotiations. This critical juncture demands that we examine 
all opportunities. Will a new Israeli Government renew 
prospects for the resumption of direct negotiations? And are 
direct negotiations even possible? Will Fatah drive to unify 
with a group that seeks Israel's destruction or will it take 
the only road to peace: Negotiations with the State of Israel?
    I would like our witnesses this morning to address the 
prospects for peace, how we will talk of reconciliation and 
U.S. policy about not just reconciliation but those very 
discussions affect the prospect for peace.
    Madam Chairman, as always, it is a pleasure to examine 
these issues with you. And I yield back.
    Ms. Ros-Lehtinen. Thank you very much to my friend.
    And now I would like to recognize the members for a 1-
minute opening statement, starting with Mr. Chabot, who is the 
chairman of the Subcommittee on Asia and the Pacific.
    Mr. Chabot. Thank you, Madam Chair. Thank you for holding 
this important hearing this morning. I certainly enjoyed 
chairing this committee for 2 years, which happened to 
correspond to the 2 years of the so-called ``Arab Spring.'' So 
it was very interesting times, and I look forward to working 
with you on this committee again.
    As I said, it is a very timely hearing. While President 
Obama has reiterated a number of times his belief that the 
resolution of the Israeli-Palestinian conflict is one of 
America's core interests in the Middle East, there has been a 
disconnect, I believe, between stated administration policy 
objectives and our aid policy.
    Palestinian leadership has, let's face it, thumbed its nose 
at Israel and its allies, including the United States, by 
unilaterally seeking non-member state status at the United 
Nations, and it now seeks a merger or a reconciliation 
agreement, as they call it, between Abu Mazen, its PLO faction 
in the West Bank and the terrorist-led Hamas in Gaza. Yet, over 
the last 3 years, as the Palestinian leadership has repeatedly 
retreated from a peace process, American assistance to the 
Palestinians has remained unchanged. I would certainly like to 
see that addressed this morning.
    Again, thank you very much for holding this hearing.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Kennedy of Massachusetts is recognized.
    Mr. Kennedy. Madam Chair, thank you very much. Mr. Ranking 
Member. Thank you for holding the hearing.
    To our witnesses, I want to thank each of you for being 
here today and my colleagues as well.
    The potential of a consensus government in Palestine and 
the effect that that would have on Israel and the broader peace 
process is of particular importance to my district back home in 
Massachusetts as well as to this country's foreign policy at a 
critical region and a critical time.
    Last year, I had the privilege of visiting our great friend 
Israel. I was deeply humbled by the incredible courage and 
dignity of Israelis who live, work, and raise families in the 
face of a daily existential threat. I saw firsthand in 
communities like Sderot, where kindergartens are reinforced by 
reinforced concrete and gas filtration systems. We saw it 
across the country where bus stops double as bomb shelters and 
enhanced security is a way of life, protecting innocent 
civilians from the threat of terror.
    Despite the complexities of an entrenched and painful 
conflict, I hold out hope, as so many others do. But for that 
to happen, Israel needs a credible partner and a negotiating 
table. I look forward to hearing your thoughts today about how 
we can move that process forward.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cotton is recognized.
    Mr. Cotton. Thank you, Madam Chair.
    I served in the Army in Iraq and Afghanistan. And I learned 
when someone says they are going to try to kill you or they try 
to kill you, you should take them seriously.
    Hamas still has that posture toward Israel. They don't 
recognize Israel's right to exist. They reject a two-state 
solution. They continue to use violence to undermine Israel's 
Government and to attack and kill Israelis. Mahmoud Abbas I am 
not sure appreciates that principle given his increasing 
sincerity on reconciliation with Hamas in trying to create a 
unity government. I know that Prime Minister Netanyahu still 
does.
    I would be curious to hear the panelists' views a little 
bit later on the results of the election last week, 
specifically the Yesh Atid party and what that would mean going 
forward and, as the madam chair and ranking member have said 
also, the implications for U.S. foreign aid toward Palestine.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Congresswoman Meng of New York is recognized.
    Ms. Meng. Thank you, Madam Chair, Mr. Ranking Member, for 
holding this hearing.
    At the outset, as a New Yorker, I'd like to note the 
passing of a great New Yorker: Mayor Ed Koch. He cared deeply 
about the right of the Jewish people to live freely and 
peacefully in their own state. He taught us all a great deal, 
and we will all miss him.
    The prospect of a Fatah-Hamas reconciliation is 
particularly disturbing for me because it will render peace and 
security almost impossible. Let's be clear. Hamas is not a 
partner for peace. Hamas is not close to being a partner for 
peace. It is not even close to being a partner for peace. So, 
of course, reconciliation will be bad for Israel and bad for 
the prospects of peace. It has failed to even recognize 
Israel's right to exist.
    I look forward to hearing from the panelists about how we 
can weaken Hamas. I am particularly concerned about the role of 
the Gulf States in financing terror in Gaza and Syria. I also 
hope to learn more about Hamas's development of its political 
and terrorist infrastructure in the West Bank as well as about 
how any reconciliation might affect West Bank women, who in 
recent years have had more freedom and opportunity than ever.
    Thank you.
    Ms. Ros-Lehtinen. Thank you.
    I am so proud to have so many Floridians serving on our 
subcommittee. DeSantis of Florida.
    Mr. DeSantis. Thank you, Madam Chairwoman.
    A reconciliation between Fatah and Hamas represents the 
death now of the peace process such that such a process exists. 
Hamas is intent on destroying the State of Israel and is 
dedicated to using terrorism to accomplish its ideological 
ends.
    Now, I am grateful, Madam Chairwoman, for you holding this 
hearing, but I am also mindful that Israel faces unprecedented 
security challenges from a nuclear Iran to the ongoing strife 
in Syria to the rise of Islamist militants in Egypt and 
throughout North Africa. Israel is our most trusted ally in the 
region. And our foreign policy must clearly project our support 
for Israel. Her security depends on it.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, sir.
    My husband and I had the honor of serving with our next 
speaker in the Florida legislature. It seems like 1,000 years 
ago. Ms. Frankel is recognized.
    Ms. Frankel. Thank you so much, Madam Chairman. And it 
really is an honor to join both you and Mr. Deutch from Florida 
and the rest of this esteemed panel.
    You know, I served as a mayor of an urban city in Florida. 
And, you know, we dealt with gang violence and hurricanes and 
never the threat of our neighbor wanting to destroy us, which 
is a threat that Israelis families live with every single day. 
So I want to say that I share with our chairwoman and ranking 
member any support for the security of Israel, who is our 
closest and most important ally in the Middle East.
    And I look forward to hearing the views of this panel today 
and with a view toward how we can maintain and advance Israeli 
security.
    Ms. Ros-Lehtinen. Thank you very much.
    Another Florida colleague, Mr. Radel of Florida, is 
recognized.
    Mr. Radel. Thank you, Madam Chair.
    I actually spent some time traveling Israel in the late 
1990s and did go to the West Bank. As with most of the areas of 
the world that I traveled to, there were great people there 
when you talked to individuals one on one: Kind, gracious, 
hospitable. And then following the passing of Yasser Arafat, we 
did think for a time maybe there was a glimmer of hope when it 
came to some sort of path to peace. And as recently as 2010, we 
saw direct negotiations between Israel and the Palestinian 
Authority providing hope for a two-state solution. But here we 
are today seeing overt signs that Mahmoud Abbas is willing to 
work with and partner with Hamas, a U.S.-designated foreign 
terrorist organization.
    Now, this growing relationship and partnership is a serious 
and grave threat to the possibility of any Israeli-Palestinian 
peace process. It is a serious and grave threat to the security 
of Israel. And it is a serious and grave threat to the security 
of the United States as well.
    I hope today that we can determine with your testimony the 
best use of taxpayer money. At a time when we have challenges 
at home with the economy, we need to demand accountability. 
And, finally, we must, must ensure that we have and keep our 
unwavering commitment to Israel.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Vargas of California is recognized.
    Mr. Vargas. Thank you very much, Madam Chairman and Ranking 
Member, for allowing me to have a moment. I stand strongly 
behind our country's commitment to our stalwart ally Israel and 
to sustainable peace with her neighbors. I also am a very 
strong supporter of Israel because of my religious background 
and believe that it should be our strongest ally.
    I am very concerned about what has happened recently, 
especially this merger of, really, a terrorist organization. We 
saw this as early as last years. And so Hamas is I think a 
great problem and one that I hope we hear extensive testimony 
today how we can help as Americans and how we can help on this 
committee. And I look forward to that.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Meadows of North Carolina is recognized.
    Mr. Meadows. Thank you, Madam Chairman.
    As we hear your testimony today, we look carefully at the 
situation in the Middle East. And obviously, as the conditions 
deteriorate, we have to certainly stand by our closest and 
strongest ally in the Middle East: Israel.
    What is problematic for me is that over many years, we have 
talked a number of times about negotiation. And, yet, here we 
have the aggressor always being Israel. You know, we have got a 
10,000 square foot country surrounded by 5.2 square miles, 
million square miles, of oil-rich land. And, yet, Israel is the 
aggressor.
    And so what I would like to hear today is how as a nation 
we can stand up by our ally and certainly stand unflinchingly 
beside Israel.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    I just want to say at the outset that before Hamas and 
Fatah can seek reconciliation with themselves, they need to 
seek reconciliation with the outside world. And the only way 
that they can do that is to denounce, to reject violence.
    In the Anglo-Irish history, many thought that that was 
never a problem that could be resolved. It was only resolved 
when two sides rejected violence and move toward a path toward 
a peaceful reconciliation, which you now have peace in northern 
Ireland.
    The fact of the matter is the Gaza Strip, which I have 
visited many, many times, could be and was once a beautiful 
place under the sun, you know, 27 miles long, 7 miles wide 
along the Mediterranean, what was once a destination for Gazans 
and for everybody from the Middle East. It has become destroyed 
because of war.
    So the death and destruction that exist there cannot be 
predicated on the continued destruction of Israel as a 
political goal. They have to reject violence, denounce 
violence. Then and only then can they be recognized credibly 
from the outside world.
    I will yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chairwoman.
    I look forward to hearing you guys speak today on your 
expert testimony. And I mimic what everybody here has said. And 
I just want to say I look forward to the testimony today to see 
what role the United States can achieve, help you achieve, in 
this process.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    And our last opening statement will be by Mr. Rohrabacher 
of California. Thank you, Dana.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. And 
thank you for again your leadership in having hearings like 
this, as you have done as chairman of the full committee.
    Just one observation. And, look, I have been around in this 
town for about 30 years. And Israel during that time period has 
taken step after step after step trying to find a way to live 
in peace with its neighbors. And now they so much as move a 
shovelful of dirt and it is claimed that they are breaking down 
the peace, et cetera, et cetera, even while the other side 
shoots rockets into their territory.
    I think it is about time that we make sure that we put some 
demands and insist let's have some action out of the 
Palestinian side. Israelis have gone out of their way. They 
have given up territory. What have the Palestinians given up in 
these last 10 and 20 years? Let's see some progress from their 
side. And certainly let's pay attention if it looks like it is 
going to get worse.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Deutch and I are so impressed with the opening 
statements of our colleagues. It is going to be a delight for 
us to co-chair this subcommittee. Thank you.
    I am so pleased to welcome our witnesses. Many of them 
are--well, you all are old friends of our committee. First, Dr. 
Matthew Levitt, who is a senior fellow and director of the 
Washington Institute's Stein Program on Counterterrorism and 
Intelligence. From 2005 to early 2007, Dr. Levitt served as 
Deputy Assistant Secretary for Intelligence and Analysis at the 
U.S. Department of Treasury. And from 2008 to 2009, he served 
as a State Department Adviser to the Special Envoy for Middle 
East Regional Security, General James Jones.
    Next, we would like to welcome Dr. Michael Rubin, an old 
friend of our committee, a resident scholar at the American 
Enterprise Institute, a senior lecturer at the Naval 
Postgraduate School's Center for Civil-Military Relations, and 
a senior editor of the Middle East Quarterly. From 2002 to 
2004, Dr. Rubin served as a staff adviser for Iran and Iraq in 
the Office of the Secretary of Defense.
    And, finally, we welcome Dr. David Makovsky, who is the 
distinguished fellow and director of the Project of the Middle 
East Peace Process at the Washington Institute. He is also an 
adjunct professor in Middle East studies at Johns Hopkins 
University School of Advanced International Studies.
    Thank you, gentlemen, for appearing before us this morning. 
I would like to remind you that your entire written testimony 
has been made a part of the hearing. If you could limit your 
testimony to no more than 5 minutes? And, without objection, 
your entire written statements will be inserted into the 
hearing record.
    We will begin with you, Dr. Levitt. Welcome.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR, STEIN PROGRAM ON 
COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Mr. Levitt. Thank you very much, Madam Chairwoman, Mr. 
Ranking Member, members of the committee.
    It is a pleasure to be here. It is an important subject 
because, in the eyes of many still today, reconciliation 
between Fatah and Hamas is a prerequisite for advancing peace 
between Israelis and Palestinians. And nothing could be further 
from the truth. The idea is that Palestinians cannot negotiate 
with Israel in any serious way when divided between the West 
Bank rule of Fatah and the Gaza rule of Hamas. And, to be sure, 
P.A. officials in the West Bank can make neither demands nor 
concessions when it comes to the Gaza Strip, but the same 
cannot be said for their position of strength in the West Bank. 
And there is much that could be done. And I think we, the 
United States, should focus our efforts on improving things in 
the West Bank. But I will leave that line of reasoning to my 
colleague David Makovsky, who has done tremendous work on that 
issue.
    The other flaw behind the reasoning that a reconciliation 
between Fatah and Hamas is some kind of panacea is that Hamas 
has not changed. Hamas remains committed to violence aimed at 
destroying Israel, refuses to acknowledge Israel's right to 
exist, and rejects a two-state solution. So a reconciliation 
with Hamas is the equivalent of inviting the fox into the 
henhouse. The preconditions for reconciliation from their 
position are things like controlling key ministries, like the 
Ministry of Interior, so that there can be no security 
cooperation with Israel or preconditions like insisting that no 
changes be made to the security services in the Gaza Strip so 
that they remain under Hamas' control and mixed between Hamas' 
security services, as such, and the Hamas terrorist wing: The 
Qassam Brigades.
    Recently, by the way, Hamas has also talked about trying to 
reenter the PLO as another form of reconciliation. This would 
be no less of a problem. So, for example, Hamas insists on 
``liberation first and then a state.'' We will fight first. And 
then we will negotiate over what is left. Why? Because Khaled 
Mashal, the head of Hamas, explains, a state based on, and I 
quote, ``compromise or settlement is not a real state.'' If 
that were not clear enough, he explains that ''Hamas will 
always be with the resistance. Resistance is not a hotel that 
we can check into and out of.'' Indeed, it is at the core of 
Hamas's identity.
    So if we look at Hamas over the past period of time, most 
people focus on the Gaza Strip and with good reason. The 
conflict in November made very clear Hamas has spent its time 
procuring weapons, including long-range Chinese-made rockets 
and other things that they are more than willing to fire at 
Israel. Less people are aware of Hamas' efforts to build up a 
domestic production capability in the Gaza Strip so that it can 
produce its own long-range rockets. Those are not yet fully 
capable, but, according to the Israelis, they were also 
building unmanned aerial vehicles to be able to conduct attacks 
into Israel proper. But it is not just the Gaza Strip. And I 
don't think enough people pay attention to this.
    As I go into in my written report, there has been a 
tremendous amount of activity in the West Bank. And in the 
event that we cease providing funding for the Palestinian 
security services, their ability to help Israel contain and 
control that threat in the West Bank would be severely 
curtailed. And that would be something that would risk Israeli 
security, Palestinian security, and U.S. national security 
interests.
    Just at the end of January, a week or so ago, the Israeli 
Defense Forces and the Israel Security Agency, the Shin Bet, 
arrested 20 known Hamas members who were plotting just the most 
recent attack.
    The other thing I don't think people pay attention to is 
that while Hamas has an immediate interest in fighting Israel, 
its ideology is shared not only with the Muslim Brotherhood 
extremists that are arising in Egypt and Tunisia and 
elsewhere,--indeed, that is one of the reasons it felt so 
emboldened as to carry out the violence in November, which it 
started with two different attacks that preceded the Israeli 
counterattack--but also because its ideology is consistent with 
other Jihadist groups. And so we have the case of Abu Ghazala, 
an active Hamas member who went off and was fighting with al-
Qaeda in Iraq. We have examples of Mamoun Qafisha and others, 
who are running Hamas' operations, not fundraising, not 
politics, operations, from Saudi Arabia. We have Hamas 
operatives procuring weapons in the Ukraine, in Turkey, in 
China. So Hamas is very, very active in these fronts, and it 
hasn't changed.
    One of the reasons, one of the other reasons, that Hamas 
did what it did in the Gaza Strip is because the most hard-
lined members of Hamas in the Gaza Strip have risen to 
political prominence. So Ahmed Jabari, until he was killed, and 
his successor now are both senior political leaders in Hamas. 
And they are moving the organization further to the right, 
pushing for ongoing ``resistance'' as they term it, terrorist 
attacks against Israel, in an effort to deal with the threat 
that they get from the more al-Qaeda-affiliated groups in the 
Gaza Strip, who challenge them with not being sufficiently 
Islamic or sufficiently tough on Israel.
    At the end of the day, while I do think that U.S. funding 
for the Palestinian Authority needs to continue, it need not be 
unconditional. For years, Congress required that PLO 
Commitments Compliance Act, the PLOCCA, which required the 
State Department to tell us exactly what then the PLO--we could 
do it now with the P.A.--was doing to further its commitments. 
But the fact is that, to its credit, the State Department has 
been doing some great things, including trying to get Europeans 
and others to crack down on Hamas financing in their countries.
    I do think, finally,--and with this, I will conclude--that 
we need to have a very serious focus on Egypt because Hamas, as 
I said, has not changed. And a cease-fire will last only as 
long as it takes Hamas to rebuild its stockpile of weapons. 
Those come west to east from Libya and south to north Iran 
through Sudan. And unless Egypt does what it has to do on its 
sovereign territory and not only at the last five yard line 
before the Gaza Strip, then those weapons will arrive.
    Thank you very much.
    [The prepared statement of Mr. Levitt follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Dr. Rubin?

 STATEMENT OF MICHAEL RUBIN, PH.D., RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Rubin. Madam Chair, Ranking Member Deutch, honorable 
members, thank you for the opportunity to testify today.
    Far from advancing peace, Hamas-Fatah reconciliation will 
accelerate conflict. At issue is not only the sanctity of 
diplomatic agreements which form the basis for Middle East 
peace efforts but also the outcome of a battle between more 
secular movements struggling against a radical Islamist 
revival. The desire to fund the Palestinian Government does 
more harm than good, not only to moderate Palestinians who 
desire to live in peace with Israel but also to U.S. regional 
interests.
    The current debate about how to approach Fatah-Hamas 
reconciliation falls into a decades-long pattern of shifting 
goals and diluting demands to keep diplomacy alive. I have 
provided examples in my written testimony, but suffice it to 
say the record of the State Department's failure to hold its 
Palestinian partners to their commitments to abandon terrorism 
is extensive and its results clear. Absent a clear-cut, 
inalterable demand that the Palestinian groups first uphold 
their commitment to abandon terror, diplomacy will fail and the 
situation will worsen.
    Too often when it comes to rogue regimes, the passage of 
time, rather than reform, legitimizes dialogue in diplomats' 
eyes. It is a pattern which discourages reform and compromise. 
Engaging and legitimizing the most violent factions 
incentivizes terrorism and disadvantages groups which play by 
the rules. Diplomacy with terrorist groups can also throw a 
lifeline to movements which otherwise might peak and collapse.
    It is impossible to consider today's reconciliation between 
Fatah and Hamas without reference to the broader context of the 
Arab Spring. While the uprisings which sparked the Arab Spring 
had their roots in a desire among ordinary people for 
government accountability, it was not long before the Muslim 
Brotherhood and even more radical Islamist groups and Salafi 
movements hijacked the revolutions.
    These Islamist groups had two distinct advantages. First, 
in opposition for decades, they could promise the world. And, 
second, Islamist movements did not have to operate on an even 
playing field. Not only rich emirates like Qatar but also 
Turkey subsidized the most radical Islamist groups.
    The overriding competition within the Middle East today is 
between Islamist and secular regimes. Iran may be Shi'ite and 
Egypt Sunni, but Teheran sees Cairo as a new ally in its fight 
against secularist regimes. Hamas' renewed empowerment comes 
not autonomously but against the backdrop of Muhammad Morsi's 
rise in Egypt and Hamas' growing relations with Iran.
    Fatah may not be moderate, but relative to Hamas, it is 
restrained. Rather than see Hamas moderate in order to join a 
coalition with Fatah, the opposite will become true. Hamas will 
have doubled down on its rejectionism, and Fatah will 
radicalize.
    To promote the two movements' reconciliation would 
effectively enable Hamas to subsume Fatah. The results would be 
grave. Should Hamas establish its dominance on the West Bank, 
not only would Israel face a growing threat, but the Kingdom of 
Jordan would be destabilized. Second and third order effects 
will undermine both prospects for peace and broader American 
interests in the region. Chaos in Syria and the radicalization 
of the Syrian opposition will only compound the problems.
    Because money is fungible, it is impossible for the United 
States to support only Fatah elements should Fatah and Hamas 
govern together. U.S. foreign assistance should never be an 
entitlement, and it should never benefit groups which are 
endemically and inalterably hostile to the United States.
    Diplomacy will fail when any figure, be it Mahmoud Abbas, 
Ismail Haniyeh, or Khalid Mishaal, treats diplomatic 
commitments not as sacrosanct but as an a la carte menu from 
which to pick and choose. It will be hard to expect any 
government to place its security on the line for diplomatic 
assurances which in practice expire in less than two decades.
    The White House and State Department may believe they chart 
a path to peace, but if they fall behind Egypt in what Egypt is 
trying to do in the region right now, they are committing a 
strategic error, which could permanently handicap prospects for 
peace and, instead, encourage a more devastating conflict.
    With that, thank you.
    [The prepared statement of Mr. Rubin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Makovsky?

   STATEMENT OF MR. DAVID MAKOVSKY, DIRECTOR, PROJECT ON THE 
 MIDDLE EAST PEACE PROCESS, THE WASHINGTON INSTITUTE FOR NEAR 
                          EAST POLICY

    Mr. Makovsky. Thank you, Madam Chairman, Ranking Member 
Deutch, and distinguished members of the subcommittee.
    Given the limited time imposed, please see my written 
testimony for a more in-depth look at this issue of Fatah-Hamas 
unity and its histories since 2007.
    Of course, the idea of unity is desirable in most contexts, 
but the question remains, on whose terms unity. Does Hamas in 
Gaza, which favors Israel's destruction, become more like the 
Palestinians in the West Bank or the reverse?
    If Hamas wants to be legitimate, the onus is on them to 
adhere to the international community or the quartet's terms 
for eligibility, which are three: Disavow violence, accept 
previous agreements, and accept Israel. The question is whether 
the U.S. can use its influence with Egypt, which did play a key 
role in the Gaza cease-fire in November, and perhaps Turkey or 
Qatar to use their influence to get Hamas to accept these three 
terms. So far this has not happened.
    Moreover, despite the obvious appeal of unity among the 
Palestinians, actual unity is far more elusive. And, therefore, 
I am not yet persuaded that, despite all of the statements, 
this will indeed occur right now. Fatah does not want to give 
up its turf in the West Bank. Hamas does not want to give up 
its turf in Gaza.
    President Abbas has resisted calls of Hamas demands to give 
up security cooperation with Israel. This is very significant. 
In 2002, more than 400 Israelis were killed in terror 
infiltrations from the West Bank. Thanks to Israel and the 
Palestinian Authority working together for more than the last 5 
years, the number is about zero. This is an important point for 
those of you who care about the security of Israel, as we all 
do.
    Hamas, at the same time, feels emboldened. And this is a 
matter of grave concern. It believes it has leverage with the 
establishment of a sister Muslim Brotherhood government in 
Egypt. Moreover, Hamas feels emboldened because it has seen the 
P.A. be weakened, specifically the reduced domestic leverage of 
Palestinian Prime Minister Salam Fayyad.
    When I testified before the full House Foreign Affairs 
Committee in September 2011, I made clear that Fayyad has had 
an exemplary record in focusing on reform in governance in the 
West Bank since assuming this post in 2007. And he has helped 
spur West Bank growth at a 10-percent per annum clip over 
several years. However, when I appeared before the full 
committee, I stated in my view that if the U.S. withholds 
economic support from the P.A., it will undermine the very 
moderate forces that have been gaining ground there. 
Unfortunately, that is exactly what happened.
    According to World Bank report this past September, growth 
levels in the West Bank have dropped by a full 3 percentage 
points. Unemployment has bumped up from 15-17 percent in the 
West Bank. There is a deepening financial crisis, and this has 
prevented Fayyad from paying full salaries on time to his 
160,000 employees for the last few months.
    People ask, is there consequence for the U.N., for the 
Palestinian to go to the U.N.? Well, we have seen the economic 
consequence. But there are considerable indications that 
because of this deepening crisis, there have been 
demonstrations outside of Fayyad's office, not outside Abbas' 
office. And one could argue that the Fatah people have helped 
to orchestrate this because they see him vulnerable now and 
they fear him as a threat to succession.
    Without regular assistance, the P.A. could collapse. And it 
is incumbent upon all of us in this room to ask, who fills the 
vacuum if they do? Do the moderates really come in or does this 
help the radicals? Pulling data shows an upsurge of support of 
Palestinian use of violence against Israelis, despite open 
opposition to such violence by Abbas and Fayyad. Nobody could 
point to a date when everything could explode, but current 
tensions should be noted.
    So what can the U.S. do at the start of the second term of 
the Obama administration to end the utter impasse between 
Netanyahu and Abbas? What is not feasible is a final status 
deal. Neither party is prepared for it, and the leaders are 
unlikely to make a deal amid turmoil in the region and the 
ascendance of political Islam. Instead, we should focus on 
interim goals that are more realistic that would prepare for an 
eventual two-state solution, such as shrinking practical 
Israeli control over parts of the West Bank, where a 
Palestinian state will emerge, and acknowledge that Israel will 
retain a slice, probably about 5 percent of the West Bank near 
Israeli urban areas, adjacent to the old boundary with the 
ultimate land exchange or land swaps based on President Obama's 
May 2011 speeches.
    The trade-off should be between Palestinians extending 
their control of the West Bank beyond their own urban areas and 
Israel extending its control in the Israeli urban areas in what 
is known as the settlement blocks. And this area roughly 
coincides to where Israel's security barrier exists.
    This overall approach of zones of agreement would delay 
security-related issues in the Jordan Valley and along the 
Jordan River until the overall volatility in the Middle East 
clarifies itself. The approach of zones of agreement will 
finally get us out of the box between either a grand deal or 
complete paralysis, where we have been for years.
    In short, each side says it cannot achieve everything but 
still agrees to take certain steps. This could lower anxiety 
levels on both sides and give moderates some results against 
radicals. Secretary Kerry would have to talk to the parties, 
whether this could be achieved through direct talks or the U.S. 
mediation.
    I have no time left. So I will wait until the Q&A to 
discuss the impact of the Israeli election, as one of the 
members has asked, on this process.
    But I would just like to say, in conclusion, we have to 
deal not just with governments. We have to deal with a public 
strategy as well with the peoples because there has been a 
profound sense of disbelief that peace is possible. And this is 
of great concern. You ask both sides, do you believe in the 
two-state solution? There are still majorities that say yes. 
But then you ask the next question, does the other side want 
it? Will it happen? The answer is a resounding no.
    I would just argue that, unless we have a public strategy, 
which I would like to elaborate in the Q&A, we won't succeed. 
This is a conflict that has been tragic. And we should do what 
we can. We cannot maybe solve it all at once but do what is 
possible and lay the foundations for a better future for both 
peoples.
    Thank you all very much.
    [The prepared statement of Mr. Makovsky follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. Thank you to our panelists for 
their excellent testimony.
    And all of you discussed this, but I wanted to get specific 
answers about U.S. aid to the P.A. I have been opposed to 
sending hundreds of millions of dollars, of taxpayer dollars, 
to the P.A. with few restrictions, as you had pointed out, as 
if it were an entitlement. While some of it gets funneled into 
Gaza and Hamas, it is worth reiterating that U.S. law does 
prohibit funding to the P.A. if Hamas is part of any consensus 
government.
    So my questions are these: What is the return on our 
investment on these funds if the P.A. continues to undermine 
Israel at the U.N. and threatens the peace process at every 
turn? Similarly, is it in the U.S. national security interest 
to continue to fund a future P.A. government that might include 
members of Hamas that is a designated foreign terrorist 
organization?
    And over the last decade, we have given billions, with a 
``b,'' billions of dollars, to the P.A. knowing its endemic 
corruption practices by its officials, by its affiliates. What 
steps should the Obama administration take to address these 
concerns and tackle the inefficiencies of the programs that we 
are funding?
    We'll start with Dr. Levitt.
    Mr. Levitt. Thank you very much.
    I think that, for all of its works, the P.A. in the West 
Bank is critical for acting as a security partner to Israel. 
Without question, we need to do more to focus on, I would say, 
the two big C's: Corruption and civil society. The United 
States under multiple administrations of both persuasions has 
made the mistake of mistaking elections as democracy when 
elections without building civil society are--well, we see what 
they are. They are Hamas in Gaza. They are Hezbollah in 
Lebanon. And so there is a lot more that can be done. And that 
does get to the issue of women, et cetera.
    But I think that there is a real return on U.S. policy. The 
question is, what type of measurements do we put in place? How 
do we measure that? That is critically important.
    The other thing I think we need to think of, though I agree 
with David that I do not think that reconciliation is likely, 
if you look at the polling data that David is referring to, 
Palestinians actually are very eager for reconciliation, not 
because they are eager for the end of the peace process, 
because they are sick and tired of this infighting.
    Ms. Ros-Lehtinen. Thank you.
    Let me just go to the other panelists, if I could. Dr. 
Rubin?
    Mr. Rubin. Yes. There is a tendency to try to bolster 
partners. And there is a long history of this. Unfortunately, 
it hasn't been successful.
    Accountability is key. I would agree firmly with you on 
that. We do have a legal framework in place. And we have 
already discussed the PLO Commitments Compliance Act. However, 
if one looks, for example, at the writings of former diplomats, 
the memoirs and such, it is also clear that the State 
Department at times has omitted reporting information which 
would have cased PLOCCA to kick in. It is essential that 
Congress use its oversight to ensure that such money and such 
commitments to law, such red lines, as it were, aren't shunted 
aside because the result of that is disastrous.
    Thank you.
    Ms. Ros-Lehtinen. David?
    Mr. Makovsky. Thank you.
    In terms of what have we gotten out of the aid, I would say 
we have gotten a quiet West Bank for the last 5 years, which is 
not a small measure. We had people blowing up there almost 
every day with infiltrations from the West Bank into Israel. 
Now Israel and the Palestinian Authority work virtually hand in 
glove in the West Bank. And I know the commanders on both 
sides. I sit with them. And that is not a small thing if we are 
serious about peace.
    And the issue of accountability, financial accountability 
and corruption, I am glad you raised it, Madam Chairman. I 
think that it is very important that, you know, you have 
someone like Salam Fayyad there, where there are external 
audits.
    I mean, remember the Yasser Arafat days? It wasn't too long 
ago: In 2002, 2003, and 2004. And they used to pay people out 
of a paper bag. I mean, those were the worst corruption days 
that were done. Now you have an external auditing. Their budget 
is on the internet. It is transparent. I have not heard any 
complaints from Prime Minister Netanyahu or any Israeli 
official, for example, about corruption. To the opposite, they 
laud Fayyad for his effort of cleaning up----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Makovsky [continuing]. What was a horrible situation.
    Ms. Ros-Lehtinen. Thank you.
    Let me go back to Dr. Levitt so he could finish what he 
wanted to say.
    Mr. Levitt. I just wanted to answer the second part of your 
question, which is about what happens with U.S. funding if 
Hamas joins the government. And here I think that Congress 
needs to play a particularly active role because after January 
2006, when Hamas won the elections and we did have a government 
that had Hamas in it, there were ways to fund that government, 
whether it was down to municipalities or otherwise. And so 
there are ways to keep things so that the West Bank didn't 
implode with the type of consequences David has described.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Levitt. And that is important.
    Ms. Ros-Lehtinen. All right. Thank you very much.
    Mr. Deutch is recognized for 5 minutes of questioning.
    Mr. Deutch. Thank you, Madam Chairman.
    One of our priorities as Israel's ally must be I think 
fostering conditions on the ground that would best create an 
environment for a sustainable peace. And we have got to promote 
conditions to protect and ensure security for Israel.
    I have serious concerns that if we were to cut off all aid 
to the P.A. in advance of reconciliation simply as a result of 
talk of reconciliation, that there are other regional actors 
that don't share our goals that will fill the gap. And we can't 
ignore the real implications of these discussions. None of you 
have. You have all addressed them. The collapse of the P.A. 
would be a serious threat to the day-to-day security for 
Israelis. It would destabilize the entire region.
    I am concerned, very concerned, as, Mr. Makovsky, you spoke 
of, that the progress made in the institutions built by Fayyad 
in preparation for statehood will crumble. And I am concerned 
about what a West Bank with a growing Hamas presence, let alone 
controlled by Hamas, would mean for Israel for the prospect of 
peace at any time.
    Dr. Levitt, you spoke about our inability to continue to 
fight Hamas efforts in the West Bank if we ceased funding to 
the P.A. security. Dr. Rubin, you spoke about the possibility 
of a Hamas stronghold in the West Bank. And, Mr. Makovsky, you 
have spoken about a Hamas that has been embolden and what might 
happen again if we were to walk away.
    So I would ask the witnesses, if the P.A. collapses, what 
does that mean for Israel's security in terms of preventing 
terrorists from coming into Israel, the flow of weapons into 
the West Bank, the possibility that what we saw coming from 
Gaza, Israel would be forced to endure from the West Bank or, 
alternatively, that the IDF would have to launch a major 
operation to prevent that?
    And, finally, despite our very real concerns, my very real 
concerns, about the P.A. in terms of corruption issues, lack of 
true democracy, and the refusal to negotiate without 
preconditions, I would ask the witnesses, what are the chances 
of preserving any chance, even the possibility of a two-state 
solution, if we make decisions that will undercut the P.A.'s 
ability to govern in such a way that its very existence may be 
called into question?
    Mr. Makovsky, let's start with you.
    Mr. Makovsky. It is clear. We cut off aid. It is a self-
fulfilling prophecy. And there will be greater radicalization. 
You know, we know that in the narrative, the radicals have won. 
The U.S.-supported, an internationally supported P.A. has 
crumbled. And victory is on our side. We are on the right side 
of history in the words of the radicals. So this would be a 
terrible, have terrible, implications.
    And then, as you point out and as I have said in my 
comments, the security cooperation I think would be 
devastating. There would be a void. Israel would have to 
probably triple the number of forces that it devotes to the 
West Bank like it did beforehand in trying to achieve what 
achieves very little cost.
    Again, I want to be clear. I am for this because I want 
dignity for both sides, not just for Israel's security, but 
this has been one of the great success stories of the U.S. I 
think in this regard. And this is not a small matter.
    Mr. Deutch. Dr. Levitt?
    Mr. Levitt. You are absolutely right. If the funds are 
dried up immediately, someone else will fill the gap. And that 
might be the same people who are funding Hamas today: Qatar, 
Turkey, others. And that would drive the P.A. to the right, 
toward violence. And that would be a huge problem.
    One of the things we can do today is to try and push our 
allies into the region who have yet to fulfill their 
commitments, lots of money that they have pledged, none of 
which they have given, Saudis and others. It is a tremendous 
embarrassment. And there is a lot of money out there that 
should be going to the P.A.
    Again, to me, the question isn't, do you fund the P.A.? I 
think that would be very bad policy. The question is, how do 
you measure their compliance? How do you measure what they are 
doing? And I think that there is a lot more we can do there.
    You know, when General Dayton went in and took people and 
vetted them and trained them, he told them, ``Palestinians, you 
may have to take on Hamas. Those may be your cousins or 
others.''
    And they said, ``Fine so long as it provides dividends and 
we see that there is movement toward a state.''
    My concern is that if the Palestinians, good, moderate 
Palestinians, were working with the Israelis day in and day out 
on security, if they don't see the prospect of movement toward 
something, at least on the West Bank, how much longer does this 
cooperation continue?
    Mr. Deutch. And so, Mr. Makovsky, you spoke of the need for 
a public strategy, then, which I would imagine is exactly--this 
is exactly the need for it.
    Mr. Makovsky. That is absolutely true. I mean, either a 
public strategy that would--I mean, you know, Matt's point is 
without the state and state building, these people would be 
accused of being collaborators. And it won't be sustainable 
over time, maybe a couple of more years. But it won't work. 
And, therefore, this all connects, the bottom up, the top down.
    In terms of--and I just want to reiterate what Matt, my 
colleague, said about the need to press the Arabs. I would love 
that this subcommittee, Madam Chairman--and I said this to you 
when you were the chairman of the full committee--would have a 
hearing on why it is that Qatar, who is supposedly a friend of 
the United States, where we have an Air Force base, gives $400 
million to Hamas? There is a perception in the world and not 
just in Washington that because of that Air Force base, they 
buy immunity from the United States Congress. That is a 
terrible perception. I think a hearing about their funding of 
Hamas would start getting at that perception and also with the 
Saudis. It takes months of prodding before they step up. So 
there needs to be some focus on the lack of Arab support here, 
too.
    Now, Congressman Deutch, about your point about the public 
strategy, this is critical. I mentioned these polls saying the 
people saying, ``I am for two states, but the other side 
doesn't want it. Therefore, it will never happen.'' I think 
what we need is a multidimensional approach that would, say, 
get some synchronized political messaging; if both leaders 
talked about the historic connection of each side, of the other 
side, to the land and to Jerusalem, when President Abbas gets 
up at the United Nations and says, ``Jerusalem is important to 
Islamic and Christianity,'' doesn't mention Judaism, what 
message that sends.
    The public is getting more and more disengaged. They are 
tired. They are skeptical. They are downright cynical as 
fatigued as you are, they are even more so. So we need to think 
creatively.
    I also think, getting back to my idea of the zones of 
agreement approach, by clarifying also that Israel's focus on 
that 5 percent, indeed, almost all of their settlement 
construction--I am not here as a fan of settlement 
construction--is in that 5 percent. But because they don't say 
it as such, people say,----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Makovsky [continuing]. ``Oh, we want to take over the 
whole West Bank.'' So this ambiguity might be good for some 
politicians, but it is deadly for Israel that is more isolated 
in the world.
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Mr. Chabot, the chairman of the Subcommittee on Asia and 
the Pacific, is recognized for 5 minutes.
    Mr. Chabot. Thank you, Madam Chair.
    A couple of years ago, I think it was back in 2011, I was 
in Israel meeting with various officials, Palestinian leaders 
and Israeli officials. I was in Ramallah meeting with Prime 
Minister Fayyad, who, as we all know, has been a critical 
figure in that region, and in that part of the world, 
specifically in that area, and his important state-building 
efforts there, you know, relative to a whole range of things. 
Ultimately this reconciliation agreement between Hamas and 
Fatah apparently happened while I was in the meeting with him, 
we later found out. And we actually met in Tel Aviv with 
Netanyahu that evening.
    It turned out that, as far as we can tell,--and I have 
talked to a lot of people about this--Fayyad didn't know in 
advance this was even happening when the agreement was signed. 
We talked about a whole range of things. Unless he was a heck 
of a good actor, he didn't even bring it up. And we heard he 
didn't know about it.
    Now, during the months since, observers of the region have 
speculated about a whole number of different leadership 
scenarios that could take place under a Hamas-Fatah agreement. 
Many of those speculate that Mr. Fayyad would not likely even 
play a role in a new coalition. I think we all know that 
Fayyad's trustworthiness and competence have been critical in 
building credibility within the Palestinian institutions. Those 
institutions for quite some time have really been a bottomless 
pit of corruption, let's face it.
    The fact I would like to pose is if, in fact, Mr. Fayyad is 
not a part of a new coalition, are the gains that we have seen 
in the West Bank sustainable? And if a Fatah-Hamas 
reconciliation occurs, what changes to U.S. aid policy to the 
Palestinians should be implemented?
    Mr. Makovsky, I will begin with you and just go down the 
line.
    Mr. Makovsky. Thank you. Thank you, Congressman.
    I think the point is right. I think every single person in 
this room agrees that if the thing actually went through and 
they put Hamas people in and they took Fayyad out and they 
gathered the security services, there is not a single person I 
think in the United States that would support continued 
American assistance for such a Palestinian Authority because 
the gains are reversible.
    And, again, I think, you know, it is--on the corruption 
issue, he has made huge inroads with these external audits by 
American auditing firms. I mean, I just remember the bad old 
days, and it has been a quantum leap forward.
    But your point is the right one, which is it is reversible. 
If the actual Fatah-Hamas merger takes place with Hamas in, 
Fatah out, security over, there is no reason why the U.S. 
should support that.
    Mr. Chabot. Thank you.
    Dr. Rubin?
    Mr. Rubin. I would agree that the gains are absolutely 
reversible. There is a danger, however, when it comes to Fayyad 
of gearing U.S. policy toward a single personality. We have 
seen in Afghanistan and elsewhere a tendency to do that. It 
seldom works out positively in the long term.
    I would just add very quickly that funding the Palestinian 
Authority should be based on Palestinian Authority behavior and 
its meeting of commitments. And we'll see how that goes as 
things move forward. When we look at the success of the West 
Bank relative to Gaza, we also need to recognize that the West 
Bank is landlocked. And perhaps this shows that Jordan is a 
much better ally than Egypt when it comes to what is supplied.
    And we also can't pretend that it is only American money 
which is causing Palestinian behavior to moderate, if you will. 
The fact of the matter is Israel has conducted unilateral 
security measures, such as the wall. And that, arguably, has 
had a far bigger impact on restraining Palestinian terrorism 
from the West Bank than has endless American subsidiaries.
    Thank you.
    Mr. Chabot. Thank you.
    Let me just emphasize what you just said about the wall. 
There were an awful lot of people years ago who were talking 
about this Draconian wall and how terrible it was. I think it 
was one of the most positive things that has been done in a 
long time, both to protect Israeli citizens and also to 
stabilize the whole region and to allow peace to at least have 
a chance.
    Dr. Levitt?
    Mr. Levitt. Thank you.
    Everything that Fayyad stands for is what Hamas has issue 
with. There is the transparency on the finance side. They love 
to commingle the money, muddy the waters, the security 
cooperation. It is clear that all of the good things about him 
are the reasons Hamas despises him. And one of their 
preconditions for reconciliation is that he not hold a senior 
position.
    One of the reasons I can't see the reconciliation going 
forward as such is that Hamas still insists on taking control 
of the Ministry of Interior. This has to be an absolute red 
line. For Hamas to take over the whole security portfolio would 
be the end of everything and certainly would be the end of U.S. 
funding.
    I do believe that the wall, the security barrier, has been 
tremendously successful, but, like David, I have spent a lot of 
time in the West Bank and Israel speaking to the two different 
security services. They both talk about the need to be able to 
couple that with cooperation on the ground. And I do not think 
that on its own, without that cooperation, the wall alone would 
stop all of the infiltrations as it has over the past 5 years.
    Mr. Chabot. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Ms. Frankel of Florida is recognized.
    Ms. Frankel. Thank you, Madam Chair.
    I listened to--there is great angst on the part of some of 
my colleagues as to whether or not to continue to fund the 
Palestinian Authority, either with more conditions, or not to 
fund it.
    My question is, what are some of the indicators or measures 
we should be looking at to know whether there is either 
progress or regression? Mr. Levitt?
    Mr. Makovsky. I think, what I would look at to, you know, 
gauge progress in the Palestinian Authority, I mentioned 
security cooperation, the lack of terrorism, of Israel and the 
Palestinians working together. I mentioned the idea of Fayyad's 
efforts of external audits, transparent budgeting, working with 
the World Bank, the Ad Hoc Liaison Committee, and others to 
make sure that its finances are in order. Yes, it has been 
running deficits, but that is because of a lack of external 
funding, frankly.
    And I would look at how much they continue the reform 
process, too. They had municipal elections last fall that 
Fayyad pushed. And that is important as well. You know, these 
are all positive metrics going forward.
    I mentioned in my testimony, though, that there are some 
financial setbacks, which have coincided with the lack of 
funding from the outside. And that has hurt Fayyad. He is the 
goose that lays the golden eggs. And without that, that effort 
is hurt.
    And then there are also the negotiations with Israel, which 
is a whole issue in and of itself, which I am happy in follow-
up questions to get into greater detail.
    Mr. Rubin. I would agree, but let me just add one more 
point. We should also be looking at incitement in the education 
system and state media against not only Israel but also against 
the United States.
    Thank you.
    Mr. Makovsky. I agree with that.
    Mr. Levitt. Yes. We are all in agreement on all of this.
    I will just add there are all kinds of things that have 
been going on that haven't been getting a lot of public 
attention. So, for example, in a short period of time, when you 
had this Hamas-Fatah government after the 2006 elections, it is 
not well-known that Hamas simply started rubber-stamping every 
request for Hamas individuals to open up charities, businesses, 
et cetera. And for the years since, Fatah in the West Bank has 
been auditing and going through every one of these and finding 
all kinds of Hamas front organizations and just shutting them 
down, no press coverage, no fanfare.
    I had the opportunity to spend a decent amount of time, 
more than once, with the woman--one of you had asked about 
women before--who heads this department in the ministry in the 
West Bank. And they are doing phenomenal work. It is important 
that this type of thing continue.
    And the fact that Hamas was able to open up so many of 
these fronts in such a short period of time before the Hamas-
Fatah government collapsed is a sign of how quickly all of the 
good work could fall apart if we allow it to.
    Ms. Frankel. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Mr. Weber of Texas is recognized.
    Mr. Weber. Thank you, Madam Chair.
    I really don't have a lot of questions or comments. I am 
basically here to learn from our witnesses and their comments. 
It is doubtful they can learn much from me. So I yield back my 
time.
    Ms. Ros-Lehtinen. Okay. Thank you.
    Let me see. Who is the next one? He is yielding his time. 
So we will go with--thank you. Mr. Radel of Florida is 
recognized.
    Mr. Radel. Thank you, Madam----
    Ms. Ros-Lehtinen. He had yielded his time. So I am not 
butting anybody here.
    Mr. Radel. A specific question and then bigger context 
here. And I think, Mr. Makovsky, you can answer both. The first 
very specific question, you talked about the West Bank and its 
economy. I am curious. Is any of it self-sufficient? How much 
of it is strictly dependent upon our money, taxpayer dollars?
    In the bigger picture here, though, what we are seeing, it 
is kind of a darned if you do, darned if you don't with foreign 
aid. Should we seek to prevent any kind of political unity, 
reconciliation? Is there any kind of laws or policy--you can 
include foreign aid in this--that would be even influential 
into preventing reconciliation?
    I would start with you, Mr. Makovsky, and anyone else who 
wants to chime in.
    Mr. Makovsky. Well, I think the West Bank has had usually a 
middle class that has been growing in recent years. They have 
been exporting to Israel. They export to Jordan and elsewhere. 
There have been some issues about exporting into Europe with 
security concerns. But a lot of that, it might be cumbersome, 
but Israel has legitimate security concerns in terms of 
material coming in and out.
    But I tend to think that this is something that should be 
encouraged. That is why I am so focused on the economics of 
this. And I say, you know, when you don't pay salaries--you 
know, that is times 5, 160,000 people times five--it affects a 
lot of people.
    Is donor assistance--that is kind of implied in your 
question, which is a very legitimate questions. Part of 
Fayyad's success that he has been so successful in getting 
donor aid, that it has helped grow the economy. I think it is 
part of it. I don't think it is the whole thing. I think we 
finally have a leader in Fayyad who believes that he will be 
measured more how much does he raise living standards upwards, 
rather than tear Israel down. That is a revolutionary idea.
    He is a PhD from the University of Texas in economics. He 
worked at the IMF for many years. And I think this idea of 
growing the middle class is something that is very important. 
And that is why it is not just about, you know, focusing on an 
individual. It is about the set of ideas that he is trying to 
install in government. And that is why I think this is such a 
vitally important experiment.
    Mr. Radel. Okay. Dr. Levitt, your take on preventing any 
kind of reconciliation, influence, policy, foreign aid?
    Mr. Levitt. I think we need to be very vocal about the fact 
that Hamas coming into this partnership without changing is 
crossing every red line. If people understand that that is the 
American position, they will understand there are consequences 
to that kind of behavior.
    I also don't think that this reconciliation--for all of the 
signing of documents and subsequent meetings, I don't see it 
happening simply because Hamas still insists on changing not 
one iota of its behavior and insisting that Fatah change its 
and getting the Interior Ministry.
    I think that we just need to make very, very clear how 
serious we are about the fact that there are things that Hamas 
can do to be admitted into the family of nations, starting with 
recognizing that there are Quartet principles, et cetera. Short 
of that, it is completely outside.
    Mr. Radel. And on the flip side, the consequences of not 
doing so.
    Dr. Rubin?
    Mr. Rubin. We have to be very careful of allowing ourselves 
to get into a situation where we fall victim to good cop/bad 
cop pressure on the part of various Palestinian groups, who may 
believe that we consider any particular group too big to fail. 
While I recognize, as David has said, the success of Fayyad, it 
is also important if we look at the metrics and public opinion, 
that the growth of the middle class and the West Bank, while 
good in long term, hasn't fundamentally altered attitudes. And, 
for that, we need to start focusing on issues such as--and I 
repeat--the incitement.
    There is always a tendency of the State Department to--an 
unwillingness to hold firm to declared principles if such a 
stand of holding firm would prevent more dialogue. It is 
crucial Congress intercede in such cases to ensure that the 
United States national security interests are upheld.
    Mr. Radel. Thank you, Madam Chair. I yield my time.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
it.
    I don't understand at all how we could possibly give any 
aid to any organization that would have terrorist elements. And 
so any merger here I think would be an absolute cutting off of 
aid. That is my view.
    I do want to ask, however, about Egypt. All three of you 
mentioned it very briefly. I mean, here is a nation of over 80 
million people, the current President talking about incitement 
in incendiary language. I mean, the comments that President 
Morsi had made in the past are just incredibly outrageous. 
Could you comment a little bit about what is happening and how 
this, our so-called allies, come into this? Because I do think 
it is very frightening to see what is happening with the 
implosion of many of these countries that border Israel through 
its security.
    If we could start off with Dr. Rubin? I see you were most 
anxious to answer. If you could go ahead and begin?
    Mr. Rubin. When I was in the Persian Gulf last year, I was 
talking to a number of liberals throughout the Persian Gulf. 
And they said, ``Look, it is not a surprise the Muslim 
Brotherhood would win in Egypt. They have been in opposition 
for eight decades. They could promise people the world. They 
could promise everyone a chicken in every pot, a pot in every 
home.'' They would provide everything. As soon as they won the 
elections, not just the Muslim Brotherhood but other Islamists 
behind them, they started losing support because what quickly 
became apparent is years of religious rhetoric would not be a 
panacea for ordinary people.
    What I was told by liberals in the Persian Gulf is the 
tragedy isn't that the Muslim Brotherhood would have won in 
Egypt. The tragedy is if anyone considers them too big to fail 
and refuses to allow them to fail because perhaps the best 
thing that could happen would be that Egyptians would wake up 
one day, as perhaps it seems they are, and recognize that the 
religious rhetoric of the Muslim Brotherhood and more radical 
groups doesn't provide an answer to them.
    So what we need to really ask is whether the Muslim 
Brotherhood is involved in a situation of one man one vote one 
time or, to paraphrase Recep Tayyip Erdogan back in the days 
when he was mayor, when he said, ``Democracy is like a 
streetcar, you ride it as far as you need and then you get 
off.'' We don't want a situation like that. Ultimately, the key 
United States interest in these regions is to ensure 
accountability.
    I would argue what the United States policy should be 
toward Egypt isn't simply apologizing for the Muslim 
Brotherhood but, rather, ensuring that there is another 
election in which the Muslim Brotherhood can be replaced if 
need be.
    Mr. Levitt. I agree. And I would add that, therefore, the 
fact that they kicked out U.S. civil society is a huge, huge 
issue.
    But, just focusing on Hamas, I think it is important to 
remember Hamas is the Palestinian branch of the Muslim 
Brotherhood. Its ties to Egypt go back very, very far, run 
very, very deep.
    When Mousa Abu Marzook, the deputy leader of Hamas, left 
Syria, he didn't go to Qatar. He didn't go to other places in 
the Persian Gulf. He went to Egypt. He now lives in Cairo. That 
is of particular interest to you and to me because he is 
indicted here in the United States. He is a fugitive of U.S. 
justice. And he is no longer living in a country that doesn't 
have an extradition agreement with us, as I understand. What 
would Egypt do if we asked them? I am pretty sure I know they 
wouldn't have ever heard of someone named Mousa Abu Marzook.
    But, again, I want to focus, as I did in my remarks and in 
my written testimony, on Sinai. The issue of the smuggling is 
of critical importance. Now, as we speak, I guarantee you 
weapons are moving across that territory headed for the Gaza 
Strip. The cease-fire from November will last only as long as 
it takes Hamas to rearm.
    Hamas has not changed one iota. It has pressures within the 
Gaza Strip from groups that are to the right of it that are al-
Qaeda-like. And it, therefore, feels the need to act, even more 
than it did before. There is no situation under which Hamas 
simply stops attacking. All it is waiting for is to rearm. And 
Egypt here is the player.
    Mr. Makovsky. Congressman, I think, you know, taking a step 
back, I think it is very important for America's interests that 
we recognize that the Egypt-Israel Peace Treaty of 1979 has 
been a cornerstone of American strategy, a successful one, for 
over three decades. There used to be interstate wars there, 
costing billions and billions of dollars every few years, 
dating back to 1948. The peace treaty, once you take 84 million 
people, the biggest Arab state, out, there are no more 
interstate wars.
    There are other problems: Hezbollah, Hamas, the Iran issue 
we could discuss. But this was a watershed. And the U.S. 
Congress was visionary in the early 1980s in understanding this 
is something we have to support. Again, I consider one of the 
great success stories of the United States of the last three 
decades that we were helpful in keeping that peace together.
    It is clear and we want to make sure that we don't want to 
take the aid away and become a self-fulfilling prophecy that 
they pull the rug from the peace. Yes, the aid, though, is part 
of their support for peace. There is no doubt. They only have 
$15 billion in foreign reserves; $1.2 billion in military 
assistance is important.
    I would just say you people, all of you on this panel, have 
a lot of influence because you are going to be meeting with 
Egyptians, the Egyptian military, the Egyptian political 
establishment. The Egyptian military has been a lobby within 
the Egyptian system for peace. And that is something that 
Israel has wanted to encourage: The Egypt-Israel military-to-
military relationship.
    But I think you need to tell the Egyptians like what Matt 
Levitt just said. And that is the issue of the tunnels. Morsi 
cannot tell all of you people, ``Well, I don't really control 
it. It is the military.'' This past summer, he politically 
decapitated 70 top generals when he had to. He has influence.
    And you know what? If you really get into the Sinai, which 
I have really started doing, what you see is there are only a 
few routes that are passable to get Fajr-5 rockets, the ones 
that hit Jerusalem, that hit Tel Aviv. There are only three 
roads they can use.
    So it is not like there are thousands of roads here. There 
are two or three. I would even say two. But the point is it is 
Morsi using his influence with the military.
    And I personally believe if the Members of Congress could 
say it quietly, you could say it any way you feel useful. 
Convey that message here, ``We want to support you. We want to 
support peace. We just want to know what direction you are 
heading in when it comes to a peace treaty with Israel. We want 
to know your efforts on stopping the tunnel smuggling,'' which 
does more to bolster Hamas than anything else.
    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Yoho is recognized.
    Mr. Yoho. Thank you, Madam Chairwoman.
    You know, I hear this debate. And I have watched this for, 
you know, 20-30 years unrolling and just over and over again 
and Chairwoman, Ms. Ileana, saying that we have given billions 
of dollars. And we have seen this go back and forth. And we are 
given that money. And how can you separate it from Hamas and 
Fatah, you know, is one thing.
    You know, I agree with you, Dr. Rubin, that if we are going 
to give the money, there have got to be certain hoops or 
criteria that they follow. And if we don't do that, you know, 
we are just going to--I don't want to say kick the can down the 
road, but that is a phrase that I want to put to rest forever. 
You know, we are going to stomp on the can so it doesn't roll. 
But, you know, this has been an ongoing process.
    What I want to know is, what are they trying to accomplish? 
I know peace is the ultimate thing. But, yet, what is Egypt 
doing? You were saying the money that we give to Saudi Arabia. 
And we can't get them to the table. How do we do that?
    And why are they not coming to the table? Because, I mean, 
they are bordering countries. And they should be there every 
bit as we want because if we want the peace, you know, we are 
the outside player. We are the third person here. I want to 
know what they are doing to encourage that more than we should 
be. And we should take a supportive role. I just want to hear 
your thoughts on that.
    Thank you. Yes. You can start, Mr. Makovsky.
    Mr. Makovsky. I said in my remarks that I think that, you 
know, you should register your disappointment with the 
Egyptians, not that we give Saudi Arabia aid, but they should 
be giving the assistance to their Palestinian brothers, whom 
they always talk about.
    Mr. Yoho. Right.
    Mr. Makovsky. But, in practice, they are very slow to give 
the money. And I think it wouldn't be bad to bring the Saudi 
Ambassador here and ask him a lot of questions, saying, ``Here. 
Look, this is what we have done to help the Palestinians. What 
have you done?''
    And I mentioned my point about Qatar, $400 million to 
Hamas. And I feel that unless the Congress people are not 
active, the administration will always say, ``We have other 
equities to deal with. And we can't raise this issue too far,'' 
of either side, Republican/Democratic administration. So I 
think it is very important the U.S. ask them about their level 
of support.
    You know, I don't want to repeat myself about what has been 
achieved about the metrics. I feel that we have had a quiet 
West Bank where Israel and the Palestinians are working 
together. And I think that is very valuable.
    I listed some other metrics. I wholeheartedly agree with my 
colleague Michael Rubin about the incitement issue that needs 
to be stressed as well. Attitudes of violence, of using 
violence, against Israel have dropped. But lately it has spiked 
up amid the impasse and the financial crisis there.
    Mr. Yoho. You were saying how it was quiet, but back in 
November, we had that massive, you know----
    Mr. Makovsky. From Gaza, Gaza, not West Bank.
    Mr. Yoho. Okay.
    Mr. Makovsky. So two separate places. Hamas controls Gaza. 
And the Palestinian Authority controls the West Bank. So all 
three of us I think are--you know, I don't want to speak for my 
colleagues but see these two very differently and call for 
saying, you know, where it is working in the West Bank we would 
want to bolster.
    And all of us have no illusions about what Hamas is. They 
are a terrorist organization.
    Mr. Yoho. Absolutely.
    Mr. Makovsky. There are no two ways around that.
    Mr. Yoho. Dr. Rubin?
    Mr. Rubin. Very briefly. You asked about the broader 
situation. I think it is important to recognize that for some 
people, the process is more important than the peace. Ideology 
matters. And we shouldn't assume the sincerity of all of our 
partners just because they may sit down at the same diplomatic 
table.
    If we look back at the Oslo process, Yasser Arafat visited 
the White House during the Clinton administration more than any 
other foreign leader. He wanted the recognition, the 
legitimacy, the aid which that brought him. Unfortunately, he 
was never willing to make the peace.
    And if we look at what so many people in the region already 
say--and Representative Cotton referred to this in his opening 
statement--we need to actually take people at their word. And 
if they are not willing to stand up publicly and say that they 
want peace, we should stop pretending they do.
    Mr. Levitt. I will just add on the question of how do you 
separate the funding between Fatah and Hamas, it is separated 
now. We are talking about what if there were a reunification? 
Therefore, I think it is important to stress again that I think 
any discussion of preemptive defunding would be 
counterproductive.
    Post-reunification, if there were to be such a thing, which 
would be very bad, as we all agree, then there would be a 
serious discussion need to be had about what kind of funding 
could be continued and under what circumstances.
    There is precedent. The Bush administration continued 
funding in 2006 after Hamas and Fatah formed a government 
together. It was very flawed. I was in government at the time. 
It was very complicated. I don't know that it could be done 
again. Maybe we should learn from that lesson. That is 
something we should look back on. We should anticipate.
    I think from both sides of the aisle, there will be 
pressure to find ways to fund non-military things, other things 
because of humanitarian issues, et cetera. That is something we 
should think about beyond just the broad statements of ``We 
don't want to fund Hamas.'' Nobody wants to fund Hamas. And 
there are clear U.S. laws against giving money to any part of 
Hamas, but there will be serious conversations that will need 
to be had about is there a way--maybe not--to provide funds to 
some elements of the Palestinian governance that aren't Hamas--
--
    Ms. Ros-Lehtinen. Thank you.
    Mr. Levitt. It may be uncomfortable, but that conversation 
will have to be had.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Higgins of New York?
    Mr. Higgins. Thank you, Madam Chair.
    I think there is a lot of discussion about essentially the 
same thing. The crux is the same. And that is, you know, the 
West Bank, I get where you would try to legitimize Fatah by 
assisting Mahmoud Abbas toward the goal of creating economic 
growth in a place that really has not experienced any kind of 
impressive economic growth. And if you succeed in that regard, 
then what you do is the only thing that you can do. You present 
a model to Palestinians that their future is either here on the 
road to stability and recognition or it is back in Gaza under 
Hamas that is preoccupied with the destruction of Israel.
    So you can't state build without political stability. And 
you can't have political stability without a categorical 
rejection of violence and a recognition of Israel's right to 
exist and Israel's right to defend itself.
    So, you know, I don't think there is anything the West 
really can do to change that. You know, they have decided a 
future that says it is better to fight the Jews than it is 
whether you win or lose than it is to fight for a better future 
for your own kids.
    So I would just throw that out and ask you to respond.
    Mr. Makovsky. Let me just say that I think you are hearing 
some skepticism, at least from Matt and myself, Congressman, 
that this unity thing is really going to happen. They all love 
to talk about it because who could be against unity as a 
theory, but, as we tried to say in our testimony, there are 
some real impediments to actually making it happen.
    And, by the way, it might even help for Members of Congress 
to consider that people are able in the Arab world to say that 
America is against unifying the Palestinians. We are not 
against them. We just want to make sure that unity happens on 
the basis of international criteria and that Hamas is not ten 
feet tall.
    If you would have told them in 2006 that they couldn't peel 
off the Europeans from the United States, they would have 
laughed at you. They would have been shocked. And, yet, the 
United States and the Europeans have held together, something 
that is not usually discussed, but that is an important point.
    We are kind of in the situation like West Berlin/East 
Berlin. And we want to see the West Berlin model be successful. 
And we are doing what we can, and everyone should do what they 
can, I should say, to make sure that the West Berlin model 
works because we have seen some positive results.
    Mr. Levitt. I will just add, as we have said, it comes 
down--you know, the idea of reconciliation isn't bad. It is on 
what terms, on whose terms. That is the key.
    I find the theme that you raised is an extremely important 
one. It is the most frustrating one to me. I wrote my book on 
Hamas in 2006. It came out shortly after Hamas won the 
elections. And the concluding chapter argued, ``Why don't we 
beat Hamas at their own game?'' Because what makes Hamas 
popular isn't actually their attacks, but it is the provision 
of social service, their Dowa, social welfare infrastructure. 
And, actually, if you look at the numbers, it is actually not 
huge numbers. If we directed some of our aid to that, maybe we 
could beat them at that game, at least in the West Bank.
    The international community was on board with the idea. The 
quartet was on board with the idea. Former Prime Minister Tony 
Blair was given that portfolio. And, for reasons that are a 
hearing unto itself, we have failed, all of us, miserably in 
this regard.
    I think it is absolutely crucial that we try and create in 
the West Bank something that people look at and say, ``Oh, you 
can succeed.'' The idea of peaceful negotiation can succeed. It 
requires the type of interim steps David talked about so 
Palestinians and Israelis both see that progress can happen 
politically, but it also requires things on the ground in terms 
of social welfare, economic opportunity. And then let people 
look at Gaza and see what it is.
    Mr. Rubin. Very, very quickly. Attacks do bolster 
popularity, unfortunately. We saw this after the Hezbollah 
conflict in 2006. We saw this most recently last year. If we 
legitimize a strategy, which is their strategy, then what we do 
is ensure that we have more violence down the road. It is all 
well and good to try to extract what you can at the diplomatic 
table or through the political process, but if you still have 
in the back of your mind the idea that if you can't get what 
you won at the ballot box or in diplomatic circles, then you 
are just going to fire rockets at Israel, then that really is a 
commitment to violence that we can't afford to ignore.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Kinzinger, it is a pleasure to have you on our 
committee.
    Mr. Kinzinger. Oh, it is great to be here.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Kinzinger. Thank you. Thanks, Madam Chair. And thank 
you guys for coming out. Appreciate it.
    You know, we have hammered a lot of those issues and may 
hit some of them as the discussion progresses.
    Mr. Makovsky, I have a couple of questions for you 
specifically. You mentioned in the Sinai region, that there are 
basically two or three roads. That could be whether it is 
controlled or patrolled or whatever. Do those terminate, do 
those actually terminate, into Israel? Is there a termination 
point in Sinai? And if they do terminate in Israel, are we 
seeing that the weapons are getting off that road at some point 
and being smuggled in? Are they being smuggled through those 
roadblocks? What can you tell me about that a little bit?
    Mr. Makovsky. Here it is. Let's take the Fajr-5 rockets 
that were used, the longer-range rockets, by Hamas from Gaza in 
the November attacks. The rockets start off in Iran. And 
Matthew Levitt is a bigger expert than I am, but you asked the 
question of me. So it often goes through Eritrea or Sudan and 
gets brought in through the shore, the western shore, of Sinai 
on these two or three roads and goes into Gaza, southern Gaza. 
Israel isn't there. Israel got out of Gaza in 2005. And it 
goes, you know, through these tunnels from Egypt, of northern 
Sinai into southern Gaza, often in trucks, to northern Gaza and 
then fired in Israel. And there are only two or three roads. 
And it is really--I am sorry--in my view an issue of political 
will of the Egyptians to stop it. And I totally----
    Mr. Kinzinger. You said there are two or three roads. But 
it basically gets to a point whereby Israel itself cannot 
necessarily----
    Mr. Makovsky. Israel doesn't control Sinai. It is Egyptian 
sovereign territory.
    Mr. Kinzinger. Right. I understand that.
    Mr. Makovsky. And Gaza is not Israeli territory either. So, 
I mean, the point to me is that it is about a political 
resolve----
    Mr. Kinzinger. Sure.
    Mr. Makovsky [continuing]. Of Morsi, of Egypt. Matt and I 
agree you don't stop it at the 5-yard line.
    Mr. Kinzinger. Right.
    Mr. Makovsky. You are on the goal line, like right just at 
the tunnel from northern Sinai into southern Gaza. You want to 
stop it way back,----
    Mr. Kinzinger. Yes.
    Mr. Makovsky [continuing]. Much earlier. Now, is----
    Mr. Kinzinger. Thank you.
    Mr. Makovsky. It could bomb some convoys in Sudan----
    Mr. Kinzinger. Yes.
    Mr. Makovsky [continuing]. Out of, I would say, frustration 
that the Egyptians have not done their part. And this is a big 
issue.
    Mr. Kinzinger. Mr. Levitt, just briefly do you want to 
address that? I just had one other issue I wanted to hit, too.
    Mr. Levitt. It is an honor that David tells me I am the 
expert on this, but----
    Mr. Kinzinger. Yes.
    Mr. Levitt [continuing]. It makes me feel good. You know, I 
feel like you touched it well. And I'll use your football 
analogy. He loves sports analogies.
    Look, the thing is this. It is not just that there are two 
or three roads. There are certain mountain passes that they 
have got to get through. They can go off those roads as they 
get closer to the Sinai. This is being done by criminal 
syndicates, mostly Bedouin, in the Sinai, been smuggling for a 
long, long time. Some of them discovered radical Islam and 
Jihad along the way. Some of them will work for anybody for 
money. All of them are very heavily armed. And the Egyptians 
don't want to take them on, even though----
    Mr. Kinzinger. So is it a lack of will to take them on or 
is it----
    Mr. Levitt. Absolutely.
    Mr. Kinzinger [continuing]. A desire to see this stuff 
actually happen?
    Mr. Levitt. It is absolutely a lack of will, even after 
Egyptian soldiers have been killed by some of these entities. I 
think there is also a small element of lack of capability if 
that still exists, but that is something that is easily 
rectified. We can be providing intelligence on some of these 
convoys, et cetera. But, short of that, the only thing that 
Israel has left is, as David said, air strikes, either in 
Sinai--there have been some----
    Mr. Kinzinger. Sure.
    Mr. Levitt [continuing]. Or further abroad.
    Mr. Kinzinger. Let me ask you, had we used, had the 
administration used, the deliverance of the F-16s or the N-1 
Abrams as kind of a stick to say, ``We will withdraw the 
deployment or the selling of these assets to you or the giving 
of these assets to you in Egypt. As a result, if you want these 
to follow through on our contract, you have to crack down on 
this in Sinai,'' could that have been effective or do you think 
that is just something totally different?
    Mr. Levitt. I think that type of that discussion has to be 
had. I would phrase it differently. I wouldn't make it an 
explicit threat. I would say, ``Look, we are excited to give 
you this stuff, but we really need to know, how do you intend 
to solve this problem here?''
    Mr. Kinzinger. And I think that is a big concern we have 
been having. You know, we have had this for decades, the idea 
of, well, if we pull aid away or reduce aid, then we lose a 
seat at the table and then we can't have influence, but, as we 
are seeing, we don't have influence. And so, in essence, how 
was aid even being used for that? You see that in Pakistan. You 
see it in Egypt. So that is even a bigger question.
    And let me hit, then, when it comes to the Palestinian 
Authority--I know we have addressed it a little bit--so if this 
unification happens, we are in that question--I heard, Mr. 
Makovsky, I think you said something about you can't reduce 
aid. And I think, Mr. Rubin, you said you can use aid as a way 
to negotiate. Maybe I didn't exactly get that correctly.
    But let's say unification happens, got the aid. Why don't 
you just very briefly address because I am almost out of time 
how the carrot or stick approach to aid can be used in ensuring 
that there is stability in a world that, frankly, kind of 
appears to be on fire?
    Mr. Rubin. I just want to clarify. I don't think United 
States aid should ever be an entitlement to a hostile regime. I 
very much do think we can use aid as a stick and that we 
shouldn't be giving aid to any administration, be it in the 
Palestinian areas or anywhere else, that is actively promoting 
terrorism and hostile----
    Mr. Kinzinger. I agree with you. And I think as pro foreign 
aid as I am, I think it is important that foreign aid not just 
be used as a seat at the table and a table that you are not 
going to get a seat at and actually be used to guarantee that 
we do get a seat at the table.
    With that, I am out of time. Madam Chair, thank you.
    Mr. Makovsky. Can I just respond? I just want to be sure 
that no one misinterprets me. I want to reiterate it again. 
When I called for U.S. support for the P.A., I did not say that 
if there is a P.A.-Hamas government with Hamas people there and 
no security and no Fayyad. I certainly said I don't think a 
person in the United States would support it. I just called for 
continuing now while there is no unity deal. I don't believe it 
is happening.
    Mr. Kinzinger. Yes.
    Mr. Makovsky. And so I just want to be sure no one confuses 
those two.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Adam.
    Mr. Schneider, thank you so much.
    Mr. Schneider. Thank you, Madam Chair. And thank you to the 
witnesses for joining us.
    I believe one of you, I believe it was Dr. Levitt, 
mentioned in opening remarks that Hamas has a long view in 
history and I think the Arab world does this. And we see in the 
region around the Israeli-Palestinian conflict with the Arab 
Spring, the Arab emergence, whatever you want to call it, 
countries at a crossroads. And my sense of what is happening in 
Israel and the Palestinian territories is that they feel that 
they are not at a crossroads, not on a path anywhere, but, 
really, on a treadmill, that we are doing the same thing over 
and over again and, Mr. Makovsky, your comment that we should 
have a policy that rewards those that focus on coexistence with 
Israel, those that will take the steps toward peace and we 
should make sure we never reward those who promote antagonism 
or terrorism. And, yet, what we see in the West Bank is Hamas 
is becoming re-emergent, and we are taking steps backwards as 
Fatah continues in its path of corruption.
    And Fayyad for all of the support we wants to give him 
seems not to have any support, any constituency getting behind 
him. How do we help Fayyad? How do we help that third way, if 
you will, to a path that can get this off of this treadmill?
    Mr. Makovsky. My point is that, look, we are holding up a 
lot of aid. I think a lot of the 2012 aid has not been 
disbursed. He has been viewed as indispensable to that. And I 
tend to believe that as long as he is continuing on the path of 
reform--and, by the way, he doesn't often get credited for 
this, but he has been pivotal in the security cooperation with 
Israel and the Palestinian Authority. You know, we support 
those who, you know, support our values. And I think that he 
has had a lot of success.
    I said in my opening remarks where I feel the lack of aid 
has hurt him and made him more vulnerable. And there are a lot 
of people who fear his ascension to follow Abbas has enabled 
them to unite around it.
    And so, instead of our lack of aid hurting Abbas and having 
demonstrations outside of his office, all the demonstrations 
are outside Fayyad's office. In my view, that is 
counterproductive.
    And as long as there is no unity on the basis of Hamas 
accepting the international criteria--again, I am not against 
the idea of unity, but until Hamas changes along the 
international criteria lines, there should be no unity. And 
Fayyad keeps his policies. And we should be supportive and 
release the holds on this money so we could bolster those key 
people who support the idea of coexistence and have helped 
Israel keep the area quiet for the last 5 years.
    Mr. Schneider. Dr. Levitt?
    Mr. Levitt. Hamas does have a long view. And when it looks 
at the Arab awakening, it sees its long view vindicated. It 
feels empowered right now. As I said, I think this is one of 
the reasons why it decided to open up hostilities in November.
    And when you compare that to the position of the moderates 
in the West Bank who are taking a position of non-violence, 
taking a position of two-state solution in negotiations and are 
getting defunded, it becomes extraordinarily difficult for them 
to explain to their constituents why their position still holds 
merit. While Hamas is still bravely fighting and sticking its 
eye in Israel's finger [sic] and then you are competing for 
public opinion, it is very, very hard. I think this is the type 
of thing that helps Palestinian public opinion polling data 
lead to questions like, do you support violence and see a 
short-term uptake in that after violence like November because 
we don't see the moderates on the other side being able to show 
tangibly what they are getting.
    Mr. Rubin. Let me just phrase this a different way. 
Throwing the lifeline to Egypt and describing Turkish Prime 
Minister Recep Tayyip Erdogan as best friend to America is to 
throw a lifeline to Hamas right now. What we are seeing between 
Hamas and Fatah cannot be separated from what is going on in 
the broader region. And, unfortunately, rather than having a 
broader strategy to address it, we tend to be in full-blown 
reactive mode.
    Thank you.
    Mr. Schneider. Pulling you back to the West Bank in 
specific because the people I talk to are saying that over the 
past couple of years, the cooperation, security cooperation, in 
particular, between Israelis and P.A. forces has led to a great 
reduction in violence in the West Bank, hopefully to get us off 
of that treadmill. How do we make sure that we don't compromise 
that ability of the Israelis and Palestinian to cooperate in 
the West Bank?
    Mr. Rubin. There will not be a continuation of that 
cooperation if there is a reconciliation with Hamas. The West 
Bank has had the advantage both to be under Fatah's leadership 
or Fayyad's management and also to border Jordan, which takes 
the threat of Hamas and the Muslim Brotherhood more broadly and 
as seriously as does Israel.
    What we see in Gaza isn't simply the Hamas administration 
there but the active involvement of some of the neighboring 
states. It is important to recognize not only the support we 
have given to Fayyad but the unilateral Israeli security 
measures, like the wall,----
    Mr. Schneider. Right.
    Mr. Rubin [continuing]. And the cooperation of the Kingdom 
of Jordan. We should be coordinating with the Kingdom of Jordan 
on some of these issues, rather than seeing everything through 
the lens of Egypt.
    Mr. Schneider. Thank you. I am out of time.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. DeSantis of Florida is recognized.
    Mr. DeSantis. Thank you, Madam Chairwoman. I thank the 
panelists.
    I have missed a lot because I am also on Judiciary, and we 
are starting our immigration hearings, more cameras in that one 
if you can imagine. But thank you. So if I ask questions that 
have been asked, I apologize.
    I think we all agree on Hamas, but in terms of the 
Palestinian Authority, Mr. Abbas, what is your sense? Because 
when I started first following this a while ago, it struck me 
that, you know, we would have this idea of a peace process. You 
had Arafat at the time, various Israeli Prime Ministers, and 
the American President would be involved. But then if you 
actually went back and looked at what was going on in the 
Palestinian areas, you would see maps that didn't have Israel 
there. You would listen to some of the things that were said in 
Arabic. And it was not necessarily conducive to wanting a 
peaceful solution.
    So at the end of the day, people like Hamas and the 
Palestinian Authority, just what is your sense? Do they 
honestly think a two-state solution is a lasting peace or is 
that just a step to eventually move Israel out of the area?
    Mr. Makovsky. I think on the issue when you asked about 
President Abbas, in particular--and I think he is flawed in 
many ways, but I will say this for him. He is a man of this 
way, of great courage in the sense that he has been very 
consistent against violence. And he has had death threats 
against him.
    He said the Second Intifada--at one point, he said it was 
terrorism. That was between 2000 and 2004, where there are 
1,000 dead Israelis, 3,000 dead Palestinians. He has paid a 
price. He has said publicly, you know, ``We want the West Bank, 
but the rest of it, Israel, that is Israel forever.'' That is 
good. He has done certain things. But he has been, 
unfortunately, risk-averse in the sense of wanting a grand deal 
that would--he would have to make historic concessions.
    And people could look at 2008 in his final months of the 
Olmert premiership. People say, ``Well, Olmert was a lame duck. 
He was at 3 percent in the polls. Come on.'' But Abbas there 
had a great opportunity that, you know, he didn't take.
    And so this risk aversion to do the grand deal I think is a 
very fair question about his ultimate attentions and maybe 
things like refugees, Jerusalem, any sort of compromises there. 
He is not capable. We don't know yet.
    My point is--and Matt says I love football and sports. So I 
will use an analogy. If we throw a hail, Mary pass, we are 
going to throw an interception or we are going to throw an 
incomplete pass. We should focus on screen passes, short 
passes, that enable us to make yardage down field. We might not 
score a touchdown, but we will have made a lot of progress. I 
think that you can do with him. And I think the fact that he is 
committed to security cooperation is a very important point.
    I mean, I just remember Yasser Arafat. That is not for me 
ancient history. This is a guy who yelled ``Jihad'' and 
``Aljazeera'' in the middle of an intifada. That is like 
calling for fire in a crowded theatre.
    And so I think they have come a long way, but there are 
definitely shortcomings. And if we had more time, I would like 
to go into greater detail.
    Mr. DeSantis. Dr. Rubin?
    Mr. Rubin. Well, to make another football analogy--thank 
you for not completely running down the clock--Mahmoud Abbas is 
in the ninth year of his 4-year term as President. I think that 
shows a little bit about his interest in the rule of law.
    As I argued before, he is a man that shows a deep interest 
in the process, rather than the peace, so long as he gets the 
privileges of the process. I don't think he is willing to take 
that final step.
    And, lastly, I would just suggest that his strategy at the 
United Nations and his willingness to cast aside all of the 
previous agreements which the Palestinian Authority had made, 
which its existence has been based upon, suggests that perhaps 
he is not as committed to the same end goal that many diplomats 
in the State Department believe he is.
    Thank you.
    Mr. DeSantis. And if you could, Dr. Levitt, just beyond 
Abbas the man, I mean, is he just reflecting a deep hostility 
amongst the Palestinian people to have a two-state solution in 
your judgment?
    Mr. Levitt. I don't think so. I don't think he is. I think 
that most Palestinians want a two-state solution, certainly in 
the West Bank and I think even predominantly in the Gaza Strip, 
though I haven't been in the Gaza Strip for several years now.
    Look, there is need for political reform, as Mike has 
pointed out. There is need for better things on rule of law, as 
Mike has pointed out. But I think that David is also right that 
on the issue of articulating a message of non-violence, he has 
been good.
    It is not enough because he has to bring people along on 
the whole package, which includes only staying in office as 
long as you are supposed to and other issues. But the process 
has to be given space to progress in order for all of these 
things to happen.
    At least in the West Bank, you do have a partner working 
with you on security measures. And I speak to the Palestinians 
about this. I speak to the administration here about this. But 
I speak to the Israelis about it. And they don't like to go out 
with pom-poms, but you talk to them privately, and they will 
tell you just how much the Palestinians are doing and just how 
bad it would be if they stopped.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Meadows of North Carolina is recognized.
    Mr. Meadows. Thank you, Madam Chairman.
    Dr. Rubin, earlier, you were talking about, as the chairman 
had brought up with some of the funding and so forth, that 
there had been already violations as we see it in terms of some 
of the foreign aid and that there would need a greater 
accountability and oversight. Can you speak to that 
specifically and what you would like to see and how either 
policy from this body or another oversight body would play into 
that?
    Mr. Rubin. Specifically, during the Oslo process and after, 
there were instances in which the American discussions with 
Yasser Arafat and the PLO would have to be severed if the 
United States drew the conclusion that Yasser Arafat was 
directly involved in terrorism. We had instances, for example, 
of his signature on disbursements of $20,000 in aid to 
operatives working in Fatah who subsequently staged terrorist 
attacks. What we were told by the State Department was that was 
not conclusive evidence.
    We need to have a willingness to recognize that the State 
Department is going to try to continue with dialogue and 
continue with the process in the hope of creating, of opening 
doors. But so long as we don't hold their feet to the fire when 
it comes to definitive evidence or perhaps even the 
preponderance of evidence, then ultimately we are going to be 
trapped in a good cop/bad cop approach.
    Sometimes I would argue we need to go back to the past, 
when we were willing, the United States Congress was willing, 
to hold up items which the United States State Department 
wanted in order to ensure a much more coherent compliance with 
the laws which the U.S. Congress had passed.
    Thank you.
    Mr. Meadows. Okay. And then following--go ahead, Dr. 
Levitt.
    Mr. Levitt. I was just going to say, you know, historically 
this is absolutely true. And if you Google PLOCCA, the first 
two things you will get are the reports that I wrote at the 
time blasting the State Department for some of these things 
that they left out, ignoring the Karin A weapons-smuggling ship 
to seize documents, et cetera. And it wasn't just the PLOCCA 
report. It was also what we then called the Patterns of Global 
Terrorism, the annual CRT report that is now called Country 
Reports on Terrorism.
    However, if you look at the latest Country Reports on 
Terrorism--and bits of it I quote in my written report--there 
is a marked improvement in truth-telling, maybe not quite there 
but a marked, marked improvement.
    And I know firsthand that the State Department over the 
past few years has been investing the kind of resources it 
hadn't in years in working with foreign governments, especially 
in Europe but also elsewhere, to do more to combat the 
financing of Hamas and Gaza in an effort to do all of the 
things we have been talking about today.
    So I want to make clear I completely agree with Mike, but 
the really bad actions by the State Department in failure to 
tell truth were several years ago. And there is a marked 
difference today.
    Mr. Makovsky. I am not aware, sir, that the Israelis, for 
example, have any complaints about the Palestinian Authority as 
smuggling weaponry the way they feared under the Yasser Arafat 
battle days. Again, I am not saying that things today are 
perfect, but----
    Mr. Meadows. Right.
    Mr. Makovsky [continuing]. I am just saying I remember 
those days. And I don't see any complaints from Israel today 
like there were in the old days, which were justified.
    Mr. Meadows. All right. And getting back to, you know, the 
football analogies that we have on both sides of this, you 
know, one is a hail, Mary pass that obviously is either 
intercepted or dropped and the other is screen passes. Do we 
end up making screen pass plays that never get us past the red 
zone?
    Mr. Makovsky. It is a fair question. I just feel that right 
now we are stuck in this box that it is either all or nothing 
in the Middle East. It is always nothing. And we have had other 
paralysis for the last 4 years between Israel and the 
Palestinian Authority. And I am concerned that this will lead 
to radicalization on the ground if people say, ``Look, you have 
heard this legacy of non-violence, Mr. Abbas, but what have you 
achieved?'' I think that is a real concern.
    And, you know, with the screen pass, I can go longer down 
the field or shorter down the field----
    Mr. Meadows. Okay.
    Mr. Makovsky [continuing]. Pending the players. It is not 
all up to the United States.
    Mr. Meadows. All right. Dr.----
    Mr. Makovsky. But I just feel we have got to stay out of 
this all or nothing approach because I am concerned that 
paralysis is going to lead to an explosion.
    Mr. Meadows. Thank you. Dr. Rubin?
    Mr. Rubin. Sometimes moral clarity is important on the part 
of the United States and its foreign policy. We cannot force a 
peace until all Palestinian factions internalize the idea that 
they want that peace. Thank you.
    Mr. Meadows. Thank you.
    Mr. DeSantis [presiding]. Thank you.
    The chair recognizes Mr. Collins from Georgia.
    Mr. Collins. Thank you, Mr. Chair. I appreciate it.
    I am going to stick with the football analogy. It has 
become popular today as I will be coming in. But I don't want 
to talk about plays. I want to talk about the draft. I am going 
to go back a little bit further because some of us mentioned 
earlier about the broader view. And I think this is a concern 
because I believe as we are sitting in a town of political 
motives and we are sitting in a town of harsh realities, that 
there may be a deeper issue here that I would like to explore 
with each of you and the dealing with Hamas and the unrest in 
Syria, Iran, the things that have been going on there and 
basically the aid that they have been getting from these two 
entities who are now struggling on different fronts, which has 
been significantly reduced. Due to the less support that seems 
to be coming in for Hamas, do you believe, one--is that driving 
them maybe to make more of a show of unification with Fatah? I 
happen to believe, as some have said, that maybe unity is not 
where this is going to lead to but a show that is being done 
that may be hedging this bet or saying, ``Here is where we are 
at right now. This is the political reality. Here is the only 
place we can go.''
    I would like to see what the future would look like because 
I think for Israel and other partners there, this is critical. 
This is where we need to go. And I would like to hear your 
comments on that. And maybe we will just start with whichever 
way you want to start.
    Mr. Levitt. I am regretting bringing up an old football 
analogy. Mr. Kennedy has left. But every time we mention it, I 
just think about my Patriots not making it.
    There is a myth out there that Iran is not funding Hamas 
anymore. It is a myth. Iran is still giving a tremendous amount 
of money and weapons, especially weapons, to Hamas. And that is 
a huge problem. Syria, of course, is another issue right now, 
but the Iran issue is still something we struggle with.
    I agree with you that I don't think that either party is 
seriously interested in reconciliation right now because both 
parties understand that Hamas feels ascendant because of the 
Arab awakening and Hamas feels no need to make any concessions 
on its key demands for an end to security cooperation, et 
cetera.
    But both need to be seen or see themselves as pursuing this 
because the public, the Palestinian public, still calls for it. 
They want it. They want the fighting to stop. They don't deal 
with the big picture. Will Hamas do this? Will Fatah do that? 
They just want the Palestinian populace to be one again, which, 
as David said, sounds like a nice idea but when you get into 
the weeds has real ramifications.
    At the end of the day, I think that if you have small plays 
and you go not only just for the first downs but you make sure 
that as you do that, you are continuing to make headway down 
field, as an interim thing, that is where we need to be. 
Eventually, then, maybe you will have a ripe environment when 
you find yourself closer to the red zone. We are nowhere near 
that now.
    The problem is if you still only think about the red zone, 
when the environment is not right for it at all, you are going 
to backtrack. So we have to do what we can now so that we don't 
have a complete collapse so that when the environment improves, 
we will be able to take advantage of it.
    Mr. Makovsky. I think your point about the unity facade is 
what is accurate. And maybe they are hedging their bets, you 
know, if, indeed, something happens, that they have this 
opportunity as a plan B. I certainly don't see it as a plan A 
for all of the reasons we have been saying in this panel, which 
I don't want to repeat. But I do think that there is a need to 
find ways to go down field.
    Maybe we all talk football because we just saw the Super 
Bowl. And hopefully it is not lights out in the West Bank. But 
we need to find a way that the people who support the idea of 
two-state solutions are not marginalized and parody, ``Oh, you 
haven't achieved anything'' because the security cooperation is 
based that these Palestinians are telling their public, ``Yes. 
We are coordinating against our own brothers working with 
Israel because it is part of state building. And we are 
building a state.'' If there is no state-to-state building, 
these people become vulnerable. And I just don't think that it 
will be sustainable over time.
    So I think that if we make progress, whether we are--you 
know how much the progress is, we could define it, but I think 
it is critical there. And it is also critical for Israel, where 
it is being more and more isolated and people are trying to 
depict Netanyahu, ``Oh, you are doing the settlements because 
you really want to take over the whole West Bank.'' And, in 
fact, virtually all of his construction is in 5 percent. Again, 
I am not defending it, but I am just saying by signaling a 
direction, we give the moderates some ammo, political 
ammunition, against their own radicals internally.
    Mr. Collins. I don't want you to answer, but in dealing 
with this, I am looking at the picture as well as Hamas looking 
to the future. Every organization is self-fulfilling or self-
sustaining. And I just don't believe at this point there has 
been enough proven evidence to say that they are backing off 
now become states in doing this. Is there more of an angle that 
you see here for a long term of where they are going here?
    Mr. Makovsky. Hamas has made clear in its statements that 
it doesn't believe that it should ever throw away its gun. If 
there is any unity, it will subsume Fatah. Hamas will subsume 
Fatah.
    I would argue that where my disagreement is with my two 
colleagues, very briefly, is there are two general philosophies 
of diplomacy. One is to wait for the opportunities to occur, 
for the stars to align for the right circumstances to occur. 
And the second is to use a process to force those doors to 
open. I am not sure not only that the second choice doesn't 
work, but sometimes I believe that trying to use a process to 
force the right circumstances can actually backfire a great 
deal.
    Mr. Collins. I think that is something we definitely need 
to look forward into the future. And I believe my time is up.
    Mr. DeSantis. All right. The chair recognizes Mr. Weber 
from Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    David, you said something a minute ago that kind of got my 
attention. I forget the terms you used. You said Israel and the 
P.A. for the last 4 years have been at a stalemate or 
paralyzed.
    Mr. Makovsky. I said that there has been a negotiating 
impasse for the last 4 years. The Obama administration has only 
been 3 weeks of talks in the last 4 years. We have never been 
in this situation before.
    Now, how do I apportion the blame? Why is that? You know, I 
think there is probably enough blame to go around. I think in 
terms of Abbas, he should come to the table. He says, ``Well, 
if I come to the table and Netanyahu builds settlements, I look 
like a fool. And my internal political standing as a politician 
is going to be hurt.'' But if you don't try to go forward, on 
the other hand, you are not going to be achieving your goals. 
So risk aversion I think has led him to be in a shell.
    ``So all right. I will go to the United Nations,'' which I 
think we all know there are no shortcuts. You can't have 
statehood without peace. And I think that that has been a major 
mistake.
    And I think with Netanyahu, he could--we didn't have a 
chance to talk about the Israeli domestic results. If anyone 
would ask me, I would be happy to offer some thoughts on this. 
But I think while he showed boldness in many ways on the 
economics and working with Fayyad and taking down checkpoints 
in the West Bank and he doesn't always get the credit for what 
he has done----
    Mr. Weber. I get that part, but, I mean, we said here that, 
number one, the violence has decreased from the Palestinian 
Authority.
    Mr. Makovsky. Right.
    Mr. Weber. And we said that the cooperation has increased.
    Mr. Makovsky. Right.
    Mr. Weber. That doesn't sound like an impasse.
    Mr. Makovsky. No, no, no. The bottom-up stuff has been 
better than ever. I said there have been some blips with Fayyad 
going back, but for the most part, the trajectory has been 
forward. But on the negotiation of, can Israel and the 
Palestinian Authority find a way to decide ``Where do we draw 
this border? How do we build this two-state solution?'' there 
has been a complete impasse.
    Mr. Weber. On that one particular----
    Mr. Makovsky. On that point.
    Mr. Weber. I got you.
    Mr. Makovsky. On the top-down negotiation. And the question 
is, can the bottom up be sustained if there is no top down? And 
my argument is that it can be over time, but I am not saying it 
is going to break down tomorrow morning. I am just saying they 
have to go together. That is all.
    Mr. Weber. Thank you.
    Mr. DeSantis. Do you yield back?
    Mr. Weber. I do.
    Mr. DeSantis. Okay. Well, thank you. Thanks to all of the 
witnesses for your time and your great testimony. This hearing 
is adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
